<html>
<title> - REACHING THE LIGHT AT THE END OF THE TUNNEL: A SCIENCE-DRIVEN APPROACH TO SWIFTLY AND SAFELY ENDING THE PANDEMIC</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                     REACHING THE LIGHT AT THE END
                    OF THE TUNNEL: A SCIENCE-DRIVEN
                     APPROACH TO SWIFTLY AND SAFELY
                          ENDING THE PANDEMIC

=======================================================================

                                HEARING

                               BEFORE THE

             SELECT SUBCOMMITTEE ON THE CORONAVIRUS CRISIS

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 15, 2021

                               __________

                           Serial No. 117-13

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                     Available on: www.govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov                          
                             
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-380 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

            David Hickton, Select Subcommitte Staff Director
                     Russell Anello, Chief Counsel
                         Senam Okpattah, Clerk
                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director

             Select Subcommittee On The Coronavirus Crisis

               James E. Clyburn, South Carolina, Chairman
Maxine Waters, California            Steve Scalise, Louisiana, Ranking 
Carolyn B. Maloney, New York             Minority Member
Nydia M. Velazquez, New York         Jim Jordan, Ohio
Bill Foster, Illinois                Mark E. Green, Tennessee
Jamie Raskin, Maryland               Nicole Malliotakis, New York
Raja Krishnamoorthi, Illinois        Mariannette Miller-Meeks, Iowa
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on April 15, 2021...................................     1

                               Witnesses

Anthony S. Fauci, MD, Director, National Institute of Allergy and 
  Infectious Diseases, National Institutes of Health
Oral Statement...................................................     5
Rochelle P. Walensky, MD, MPH, Director, Centers for Disease 
  Control and Prevention
Oral Statement...................................................     7
David Kessler, MD, Chief Science Officer, COVID Response, 
  Department of Health and Human Services
Oral Statement...................................................     8

Written opening statements and the written statements of the 
  witnesses are available on the U.S. House of Representatives 
  Document Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              


  * Letter Regarding COVID Vaccines; submitted by Chairman 
  Clyburn.


Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are available at: 
  docs.house.gov.

 
                     REACHING THE LIGHT AT THE END
                    OF THE TUNNEL: A SCIENCE-DRIVEN
                     APPROACH TO SWIFTLY AND SAFELY
                          ENDING THE PANDEMIC

                              ----------                              


                        Thursday, April 15, 2021

                   House of Representatives
      Select Subcommittee on the Coronavirus Crisis
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 10:47 a.m., 
2154 Rayburn House Office Building, Hon. James E. Clyburn 
(chairman of the subcommittee) presiding.
    Present: Representatives Clyburn, Waters, Maloney, 
Velazquez, Foster, Raskin, Krishnamoorthi, Scalise, Jordan, 
Green, Malliotakis, and Miller-Meeks.
    Chairman Clyburn. Good morning.
    The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time. I now recognize myself for 
an opening statement.
    This pandemic has taken a heavy toll on our Nation. More 
than 550,000 of our fellow Americans have died, more than in 
any other nation on Earth. Nearly one in 10 has been infected 
and millions have faced hardships like job loss, mental health 
struggles, and the loss of a loved one.
    But today, more than a year into the pandemic, there is 
reason for hope. Our government's response to the coronavirus 
crisis is now driven by science and fact, not politics and 
wishful thinking.
    After the previous administration failed to contain the 
virus, this new approach is already showing results. Since 
President Biden took office, we have seen a massive increase in 
the pace of vaccinations. Just look at the progress we have 
made since January 20 and is shown here on this chart.
    We are vaccinating more than 3 million people each day with 
a record of 4.6 million shots this past Saturday. More 
Americans were vaccinated this past week alone than in the 
first six weeks of a vaccine rollout.
    One-third of the United States population has now received 
at least one dose of the vaccine, and four days from now all 
adults will be eligible to receive a vaccine.
    We are on the path to finally defeat this virus. Yet, 
challenges continue. To protect all Americans from this virus, 
we must ensure that vaccines are distributed equitably, and 
that vaccine hesitancy is overcome.
    Black and brown communities, rural communities, and low-
income communities have all been ravaged by the pandemic, and 
we must take special care that they are not left out of our 
recovery.
    Overcoming these challenges is especially urgent because we 
are now seeing more contagious and deadlier variants spread. 
These variants are driving a recent increase in new infections, 
especially among younger adults, who may feel less vulnerable 
to the disease and let their guard down.
    In some states, new cases and hospitalizations have more 
than doubled in the last two weeks. Hospitals have begun to see 
more patients in their 20's, 30's, and 40's.
    I look forward to hearing from today's witnesses about what 
measures we must continue to take to save lives before all can 
be vaccinated.
    We are joined today by three of our Nation's top public 
health experts to help us understand how a science-driven 
approach will put us on the path to return to near normalcy 
that can be sustained.
    Dr. Anthony Fauci is the director of the National Institute 
of Allergy and Infectious Disease and the most trusted voice 
guiding Americans through this crisis.
    Dr. Fauci, I am glad to welcome you back to the Select 
Subcommittee. Your expertise has led us through some of the 
darkest days of the pandemic and I thank you for your candor 
and for your service and dedication to the American people.
    Dr. Rochelle Walensky is the director of the Centers for 
Disease Control and Prevention. Dr. Walensky, under your 
leadership, the CDC is reaffirming its commitment to science 
rather than political interference of the prior administration 
and is being restored to its role as the world's preeminent 
public health organization.
    I look forward to learning more about your work and how you 
and all of our Nation's scientists are working to protect our 
health.
    Dr. David Kessler, the Chief Science Officer for the 
coronavirus response, is leading the Biden administration's 
vaccination efforts. He was previously appointed by President 
George H. W. Bush to serve as commissioner of the FDA.
    Dr. Kessler, I thank you for being here today to update us 
on our progress toward vaccinating all Americans that.
    Dr. Walensky, you recently said we are at a critical point 
in this pandemic, a fork in the road, where we, as a country, 
must decide which path we are going to take. As we navigate 
what we all hope will be the final months of the pandemic, we 
must take the path of science.
    After so many have died, this is the path to preventing 
further loss of life. After so many have lost their jobs, this 
is the path to a strong recovery. After so long, this is the 
path to safely returning to normal activities as soon as 
possible.
    I now recognize the distinguished ranking member, Mr. 
Scalise, for his opening remarks.
    Mr. Scalise. Thank you, Mr. Chairman, and appreciate you 
holding this hearing. Welcome, our guests, and look forward to 
your testimony.
    America is at an important inflection point. The COVID-19 
pandemic hit our shores just over a year ago. Too many families 
mourn the loss of loved ones. Too many children have lost a 
year of school.
    Many felt depression and millions lost an irreplaceable 
year of their childhood. Too many family-owned businesses are 
permanently shuttered.
    Far too many low-income Americans have been thrown out of 
work because of selective ineffective lockdowns. And now, we 
are finally starting to see a light at the end of the tunnel, 
as the title of this hearing suggests.
    American ingenuity has led the way. Operation Warp Speed, 
which President Trump put in place, delivered the fastest 
vaccine in history. Investments by this U.S. Congress over the 
past 25 to 30 years in biomedical research have provided the 
platform to deliver these vaccines.
    The American pharmaceutical industry, who are world 
innovators, as well, Dr. Fauci, is your team at the National 
Institute of Health, deserve tremendous credit for the work 
that has been done to deliver those vaccines and the American 
people are starting to benefit.
    Through President Trump's leadership and his refusal to be 
told no, that led to extraordinary speed, warp speed, to use 
his term, in getting the vaccines from the lab into the arms of 
over 100 million Americans, 112 million people to be specific.
    More than 33 percent of the U.S. population have received 
at least one dose of vaccine. About 70 million people, 20 
percent of the U.S. population, have been fully vaccinated.
    I commend President Biden for accepting the challenge that 
House Republicans issued at the beginning of this year to not 
just accept what was already in place--the 100 million vaccine 
goal--but to, in fact, double that to 200 million shots. We are 
now on pace to reach that goal that we set.
    But, Dr. Fauci and Dr. Walensky, the question that I get 
asked the most these days is pretty simple: if I got the 
vaccine, why can't I resume my normal activities? Why can't my 
kids go back to school? Why can't I go to a restaurant with my 
friends again?
    Neither the CDC nor NIH nor the White House have provided a 
satisfactory or consistent answer to that question. In the 
absence of logical guidance, Americans have done what Americans 
do better than anybody in the world. They have taken the 
initiative to safely get back to their everyday activities and 
lives as best as they can.
    I know we have learned a lot along the way and are still 
learning about this virus. But the data now shows that the 
harshest lockdowns did not work. School closings did not work.
    In fact, they have done devastating damage to these young 
kids and still, in many states, are destroying future 
opportunities for millions of young children across America 
when all the science says schools not only can be reopened 
safely, but should be reopened safely.
    Despite the evidence, some local communities, especially in 
northeastern states, have chosen to remain locked down. Some 
communities, more so in the South, have chosen to lift mandates 
and safely reopen schools as well as local businesses.
    Yet, as of today, the 10 states with the highest infection 
rates are all northern states: Michigan, New York, New Jersey, 
Connecticut, et cetera. Florida gets a lot of media attention, 
much of it unfairly harsh because the people of that state made 
an early decision to follow the science to get kids back in 
school and to make life as normal as possible while confronting 
this challenge of the virus.
    Their results, certainly, appear better than those of 
lockdown zealots in New York or California. But just last week, 
YouTube took down a video of a roundtable that Governor 
DeSantis of Florida led talking with doctors about kids and 
schools and masks.
    YouTube has cited CDC guidance as the reason they took down 
that video. Why would anyone want to silence a governor of a 
state on the front line of this pandemic holding a roundtable 
with doctors about best practices regarding their own 
experiences in the real world and sharing what they have 
learned?
    The American people also deserve better answers about the 
Federal Government's response to the unprecedented surge of 
illegal migrants crossing our southern border.
    Last week, I led 10 of my colleagues to the U.S.-Mexico 
border to see firsthand the devastating national security, 
humanitarian, and health crisis that President Biden has 
created at our southern border with his disastrous open-border 
policies.
    All Republicans on this subcommittee have made that trip to 
the border to see what is going on. At the data processing 
facility, we encountered thousands of migrants cramped into 
makeshift shelters in overcrowded rooms that were more than 10 
times the capacity limits that have been set.
    We saw children in tears, who simply wanted to go back home 
to be with their families. But, instead, they were here in 
these federally run holding cells, with at least a 10 percent 
COVID positive rate, many being held for longer than three 
weeks, well over the legal limit.
    President Biden also is not fully enforcing Title 42 of the 
Public Health Safety Act designed to prevent migrants from 
spreading COVID in the United States.
    Since President Biden took office, families with children 
under seven are being dropped off at the McAllen bus station in 
Texas and released from custody. No COVID tests, no 
quarantines, no enforcement that all Americans have to follow.
    Even more concerning is that the Biden administration may 
completely end enforcement of Title 42. If that happens, Border 
Patrol agents have told us that the number of illegal crossings 
at the border could mushroom even higher.
    As we toured the data processing facility, we saw the 
holding rooms that President Biden set up for young children. 
Each room is not supposed to have more than 50 people, six per 
cell. But what we saw was more than 400 children packed like 
sardines into these cells that were designed for less than 50.
    It was heartbreaking to see so many young children packed 
into these cells laying on floors, many crying because they 
want to return home. Social distancing does not exist in these 
facilities.
    Dr. Fauci and Dr. Walensky, I would urge you to go down to 
the border to see what is going on at that federally run 
detention facility in violation of the very CDC guidance that 
you issue that we, as Americans, have to follow.
    But I also urge you, as public health officials, to 
understand the frustration and confusion of the American 
people. COVID-positive migrants are released into the country 
and that is allowed, but a vaccinated person can't go to a 
restaurant. Kids packed into a crowded, poorly ventilated cell 
six inches apart, not six feet apart, for 20 hours a day is 
being allowed, but we can't reopen schools in America for in-
person learning.
    That is lunacy. There is absolutely no reason why this is 
going on. President Biden and Vice President Harris need to go 
down to the border and see what their policies have created and 
reverse what is happening.
    The public health messaging only works if the people trust 
the messengers. The light at the end of this tunnel, which 
every one of us on this subcommittee agrees on this point, as 
do our witnesses, that light at the end of the tunnel is to 
vaccinate as many people as possible and to reopen America.
    The Biden administration needs to do a better job starting 
today.
    Mr. Chairman, I yield back the balance of my time.
    Chairman Clyburn. Thank you, Mr. Scalise.
    Will the witnesses stand so I can swear them in?
    Please raise your right hands. Do you swear or affirm that 
the testimony you are about to give is the truth, the whole 
truth, and nothing but the truth, so help you God?
    [Witnesses are sworn.]
    Chairman Clyburn. You may be seated. Let the record show 
that the witnesses answered in the affirmative.
    Without objection, your written statements will be made 
part of the record. Dr. Fauci, you are recognized for your 
opening statement.

STATEMENT OF ANTHONY S. FAUCI, DIRECTOR, NATIONAL INSTITUTE OF 
 ALLERGY AND INFECTIOUS DISEASES, NATIONAL INSTITUTES OF HEALTH

    Dr. Fauci. Thank you very much, Mr. Chairman, Ranking 
Member Scalise, members of the committee. Thank you for giving 
me the opportunity to talk to you today about the role of the 
National Institute of Allergy and Infectious Diseases in 
research addressing COVID-19.
    In April 2020, we put together a strategic plan that had 
four elements: fundamental knowledge of the disease, 
diagnostics, therapeutics, and vaccines. For the sake of this 
hearing, I will focus my remarks specifically on the 
development of safe and effective vaccines.
    Just last Friday, I published in the journal Science what I 
call the story behind the COVID-19 vaccines, because people 
were concerned about how quick this was done over a period of, 
literally, less than a year.
    And I quote what I said in the article, ``The speed and 
efficiency with which these highly efficacious vaccines were 
developed and their potential for saving lives are due to an 
extraordinary multidisciplinary effort involving basic 
preclinical and clinical science that had been underway out of 
the spotlight for decades before unfolding of the COVID-19 
pandemic.''
    And in fact, much of this has been done by NIH and its 
grantees and contractors involving the basic research and 
clinical research that developed the vaccine platforms, 
including the messenger RNA and other platforms.
    The work of Dr. Barney Graham and Kizzmekia Corbet and 
others stabilized the prefusion spike protein, which is used in 
virtually all, with few exceptions, of the vaccines that are 
now successful, and the NIH clinical trial units that we set up 
for flu and influenza have now been converted to testing the 
vaccines for COVID-19.
    As we are all aware and as you mentioned, Mr. Chairman, we 
now have three highly successful and efficacious vaccines that 
are being implemented here in the United States. This has been 
actually given a very strong recognition by Science magazine as 
the science breakthrough of the year.
    But, importantly, it is even better than the efficacy of 
the vaccines themselves because what we see here is that we 
have had an effectiveness which was even better than the 
original data.
    Let me explain. Efficacy means what you get in a clinical 
trial. Effectiveness means what goes on in the community and in 
the real world. And as shown on the slide, there have been a 
number of studies which have looked at what happens in the real 
world.
    For example, the study from the University of Texas 
Southwestern showed their employees had a 0.05 percent 
infection rate when they were vaccinated, extraordinarily low.
    The CDC summarized data from a number of studies showing a 
very low level of infection in people who are vaccinated, in 
this case, 0.04 per 1,000 person years. In addition, the 
durability of the vaccine is considerable.
    This study, looking at one of the vaccines but it holds 
true for the others, has at least the six-month duration of 
protection, very likely much longer than that but at least 
that. I cannot talk about vaccines without mentioning the 
challenge that we have with variants, which I am sure we will 
discuss later in the hearing.
    The good news is that one of the variants that is becoming 
dominant in this country, the B117, which was originally 
recognized in the United Kingdom, is very well covered by the 
vaccines that we are using and, in fact, even with others that 
are more problematic. If the vaccine doesn't protect against 
the initial infection, it protects against severe disease.
    I want to close by a comment that I believe really 
characterizes where we are. We are in a race between 
vaccinating as many people as quickly and as expeditiously as 
we possibly can and the threat of the resurgence of viruses in 
our country because as we know, we are at a precarious 
situation with many states having increases in the daily number 
of cases.
    In fact, the average is now over 60,000 per day and that is 
something that we really must pay attention to.
    So, I will close with that comment, Mr. Chairman, and be 
happy to answer questions later on. Thank you very much.
    Chairman Clyburn. Thank you very much, Dr. Fauci. Perfect 
timing.
    The chair now recognizes Dr. Walensky.

STATEMENT OF ROCHELLE P. WALENSKY, M.D., MPH, DIRECTOR, CENTERS 
               FOR DISEASE CONTROL AND PREVENTION

    Dr. Walensky. Thank you, Chairman Clyburn and Ranking 
Member Scalise, for the invitation to speak with you today.
    Over the last three months, I have had the honor of serving 
as director of the Centers for Disease Control and Prevention 
alongside dedicated staff who are working tirelessly responding 
to the COVID-19 pandemic, and addressing ongoing public health 
needs of our country.
    I am so grateful for their guidance and deep expertise, and 
I am committed to supporting their efforts to ensure science 
and evidence drive our path forward.
    I want to take a moment to recognize the over 560,000 
American lives lost--mothers, fathers, sisters, brothers, 
grandparents, and children who have died because of this virus.
    Every life is lost--every loss is felt by grieving families 
and by communities devastated by this pandemic. Although we 
have seen incredible advances in science to help curb COVID-19 
infections and bringing relief to those who are sick, we must 
remain vigilant in our prevention efforts.
    The emergence of variants that spread more easily has made 
the race to stop transmission even more challenging. As we 
monitor disease transmission and variants, we are getting 
vaccines into arms quickly, safely, and equitably.
    Vaccine safety is a top priority and we take all reports of 
adverse events following COVID-19 vaccination seriously. As 
announced earlier this week, CDC and FDA recommended a pause in 
administering the Johnson & Johnson vaccine while we review 
data and assess significance around adverse events reported in 
six people.
    CDC and FDA are committed to remaining transparent through 
this process and will provide updates as they are available. 
CDC is working in coordination with national, state, tribal, 
and local governmental and nongovernmental partners to build 
trust in the vaccines, the vaccinator, and the vaccination 
system.
    Instrumental to this work is eliminating barriers to 
vaccination in communities of color and other 
disproportionately affected groups. COVID-19 has underscored 
the importance of addressing long-standing systemic health 
disparities as a cornerstone of achieving health equity.
    And just this past week, I declared racism a serious public 
health threat and highlighted ways CDC will confront the impact 
of structural inequities to serve as a catalyst for greater 
education and dialog around these critical issues.
    CDC is committed to expanding evidence-based approaches to 
reduce disparities in COVID-19 cases, hospitalizations, and 
death, to prioritizing equity and vaccine distribution and to 
expanding a diverse work force.
    CDC has announced a number of investments in alignment with 
these goals, including our largest single investment in health 
equity. CDC will distribute $2.25 billion to address COVID-19 
health disparities and advance health equity among populations 
who are high risk and underserved.
    In addition, CDC has invested $3 billion to strengthen 
vaccine confidence with a focus on increasing uptake and 
equity, particularly in communities hardest hit by this 
pandemic.
    This is not our first emergency. Since 2009, the U.S. has 
faced four significant emerging infectious disease threats: the 
H1N1 influenza pandemic, Ebola, Zika, and now COVID-19.
    While urgency demanded rapid and unique approaches in 
response to each of these threats, none resulted in necessary 
sustained investment for public health infrastructure. If we 
don't act with permanent fixes, these challenges will continue 
to exist when the next public health threat emerges.
    I want to leave you with four points today.
    First, CDC is leading with science and will continue to be 
the public health scientific resource for the American public 
and for our international partners.
    Second, we are expanding the reach of lifesaving COVID-19 
vaccines and improving vaccine confidence. As of April 14, more 
than 194 million doses of COVID-19 vaccines have been 
administered.
    However, to end this pandemic, we must also maintain proven 
effective prevention measures: masks, hand hygiene, and 
physical distancing.
    Third, health equity must be at the intersection of 
everything we do in public health, and I am committed to doing 
that as CDC director.
    And, finally, we must work toward sustainable investments 
in public health infrastructure to be better prepared for 
whatever comes next.
    I look forward to working together to address both the 
immediate challenges ahead and addressing the deficiencies in 
our public health infrastructure that left our country so 
vulnerable to this pandemic.
    We will get through this pandemic and I look forward to 
working with you to support CDC and to address our public 
health challenges at home and abroad.
    Thank you for the invitation to testify today and I look 
forward to answering your questions.
    Chairman Clyburn. Thank you very much, Dr. Walensky.
    As I recognize Dr. Kessler, I apologize for uttering a 
Gullah Geechee pronunciation of your name earlier.
    Dr. Kessler?

   STATEMENT OF DAVID KESSLER, CHIEF SCIENCE OFFICER, COVID 
       RESPONSE, DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. Kessler. Chairman Clyburn, Ranking Member Scalise, 
distinguished members of the subcommittee, I am David Kessler. 
I am honored to be serving as the Chief Scientific Officer of 
the COVID-19 response.
    Today, the United States is in a special position. We have 
administered more than 194 million doses of vaccine for the 
prevention of COVID-19.
    I am pleased to report that over 79 percent of people over 
65 have received at least one dose and over 60 percent of 
people over 65 are fully vaccinated. We have enough supply to 
deliver 3 million shots per day and we have secured enough 
doses of mRNA vaccines for 300 million Americans.
    We have already delivered more than 250 million doses to 
more than 69,000 vaccination sites and have enrolled more than 
142,000 providers to administer vaccines.
    I, along with my colleagues here today, are ready to answer 
your questions and discuss recent issues surrounding, for 
example, the Johnson & Johnson vaccine.
    The point that I want to stress is that nothing, nothing, 
should detract from the fact that Americans need to get 
vaccinated and that we have vaccines available today that meet 
our high standards for safety and effectiveness.
    I hope we can all agree that it is important that our 
fellow citizens get vaccinated and that we help ease the minds 
of those who are considering getting vaccinated.
    We are in a strong position with respect to vaccines, and 
over the next several weeks supply is going to continue to 
increase and we will release approximately--up to 28 million 
doses a week.
    But we need to confront the reality of vaccine hesitancy. I 
have focused much of my career on studying drug safety. The 
most important way to help people overcome their concerns about 
vaccine is to be transparent with them about the safety about 
these products.
    When it comes, for example, to the mRNA vaccines, real-
world data show that they are more than 90 percent effective in 
preventing infection two or more weeks after the second dose, 
and that these vaccines have, to date, an excellent, excellent 
safety profile.
    We continue to make important investments in the 
development, manufacturing, and supply of multiple vaccine 
platforms to make sure that we will continue to have safe and 
effective vaccines to prevent COVID-19. I just want to update 
you on three important critical initiatives.
    First, as a pediatrician, we need to carefully evaluate 
data on the safety and effectiveness of vaccines in adolescents 
and children. We expect that data on vaccine safety and 
effectiveness in adolescents and children to be carefully 
reviewed by FDA and the ACIP, and we will work to expeditiously 
deliver those doses if they are authorized or licensed.
    Second, we are also working to address questions about 
variants. The current vaccines have proven highly effective, 
but we are also supporting studies on variants and efforts to 
produce the next iteration of these vaccines if they are 
needed.
    Finally, we are planning for potential booster doses of 
vaccines if they are needed. As with other vaccines, a 
subsequent dose may be desirable.
    I look forward to working with members of this subcommittee 
as we address these issues. Thank you for the opportunity to 
testify today and I look forward to your questions.
    Chairman Clyburn. Thank you very much, Dr. Kessler.
    Each member will now have five minutes for questions. The 
chair now recognizes himself for five minutes.
    I want to begin my questions by going back to the opening 
statement of my good friend, the ranking member, who seems to 
feel, like I do, that if we get these vaccinations done, we 
ought to be able to let kids back into school. I agree with 
that.
    And I just want to say that, Dr. Kessler, if you are, in 
fact, following the science with this. If we get the 
vaccinations done, we might be able to resume a meeting on the 
floor of the House. We are trying to accommodate the requests 
of scientists.
    The ranking--I mean, our attending physician has told us 
whether it will be required and I think we ought to lead by 
example and restore the House to regular order by getting 
vaccinated, and then I think the schools might follow. That is 
just something that I would like you, Dr. Kessler, to opine 
about, if you don't mind.
    Dr. Kessler. Mr. Chairman, you just said it more eloquently 
than I could ever say. Let us get Americans vaccinated. Let us 
get this done, and then we can see the light at the end of the 
tunnel. That is the goal.
    I mean, I would hope today we can send a very loud clear 
signal to our fellow citizens who--I mean, many, 
understandably, you know, have questions, may be sitting on the 
fence.
    But I have looked at the data. We have all studied the data 
and looked at the safety and effectiveness of these vaccines 
and, today, I think we need to encourage our fellow citizens.
    The only way we are going to get out of this, especially 
with this increase in variants, sir, is to get people 
vaccinated. I hope we can all come together and send that 
message.
    Chairman Clyburn. Thank you, Dr. Kessler.
    Dr. Fauci, I heard this morning, and I apologize I am not 
able to quote it exactly the comments or statement coming from 
Oxford this morning about AstraZeneca versus Johnson & Johnson 
and all the other vaccines.
    Would you like to enlighten us as to the impact or the 
efficacy of their statement?
    Dr. Fauci. Yes. I think there is going to be some confusion 
about a paper that just came out from the Department of 
Psychiatry of the University of Oxford, whose major purpose was 
a reasonable purpose.
    Using electronic records, they were trying to find out the 
difference in the incidence of thrombosis, particularly 
cerebral venous thrombosis, following the disease COVID-19 
compared to various vaccinations, including influenza, as well 
as the mRNA vaccines of Pfizer as well as Moderna.
    And they found that, as you might expect, following the 
disease you get a very marked increase in the incidence of this 
adverse situation of cerebral venous thrombosis.
    However, one of the potential confusing aspects of the 
paper, Mr. Chairman, is that when they made the calculation of 
what the incidence of this is following vaccination with an 
mRNA, they gave a number of four per million.
    Then they went and made an extrapolation of data that 
wasn't even in the study, which showed that according to the 
European Medicine Agency, the incidence of this complication 
following the chimp adeno of AstraZeneca was five per million, 
indirectly suggesting that the complication following one 
vaccine is similar to that of the other, and it is impossible 
the way this study was designed and conducted to make that 
determination.
    So, I believe when this paper, which is in a preprint 
server, gets submitted to the classical scientific journals and 
undergoes peer review that that confusion will be straightened 
out and it will be clear that you cannot make any statement the 
way this is designed about the adverse events following the 
vaccination with the mRNA comparing to anything else.
    There were many, many, I would say, procedural gaps in here 
regarding the way the study was done. It was a well-meaning 
attempt to show that COVID-19 disease is followed by this 
complication. But they led to some suggestions that I think are 
not called for in the paper.
    Thank you.
    Chairman Clyburn. Well, thank you very much, Dr. Fauci, for 
clearing that up because I think it should go explained, fully 
explained, to the American people. The headline of that--of 
this morning could very well cause some real setbacks.
    I see my time has expired. I now yield to the ranking 
member for five minutes of questions.
    Mr. Scalise. Thank you, Mr. Chairman.
    Dr. Fauci, Dr. Walensky, we are going to be passing out 
some pictures. These are pictures that were taken just last 
week during the trip that I took along with 10 of my colleagues 
to the southern border over in McAllen, Texas, some from the 
border in McAllen at a temporary processing center, some at the 
Donna detention facility, where you can see in some of these 
cells that are holding people.
    I will let you take a look at those. But while you are 
reviewing those pictures, I would like to read the CDC guidance 
that you all have issued on Mexico and, first, it says level 
four, which is the highest level, very high level of COVID-19 
in Mexico.
    This is CDC. One, travelers should avoid all travel to 
Mexico. That is CDC guidelines. Because of the current 
situation in Mexico, even fully vaccinated travelers may be at 
risk for getting and spreading COVID-19 variants and should 
avoid all travel to Mexico. This is CDC.
    You go on to say some other things. Then we talk about 
traveling back into the United States. This is only if you are 
an American citizen.
    All air passengers coming to the United States, including 
U.S. citizens and fully vaccinated people, are required to have 
COVID-19 test results no more than three days before travel or 
documentation of recovery from COVID-19 in the past three 
months before they board a flight to the United States.
    That is a CDC guidance document. So, first, Dr. Walensky, 
should everybody who comes in the United States follow this 
guidance, not just American citizens but everybody coming into 
the United States?
    Dr. Walensky. The CDC guidance by air is guidance not just 
coming from Mexico. It is air travel from all over the----
    Mr. Scalise. So, Guatemala, for example, should follow this 
guidance?
    Dr. Walensky. It is all over the globe, Europe, everywhere. 
All----
    Mr. Scalise. El Salvador should follow this guidance?
    Dr. Walensky. All over the globe if you travel by air. This 
is the guidance.
    Mr. Scalise. I appreciate--I appreciate you answering that 
because we will get to that in a minute, because on my flight 
back from McAllen back home to New Orleans, about half of the 
plane were some of the people that are in these pictures who 
were getting on these flights not being tested for COVID in 
violation of your guidance.
    So,let me ask you, and this is, by the way, Secretary 
Mayorkas just recently testified that he admitted that 
apprehended migrants were released before getting a COVID test, 
who came from Mexico, from El Salvador, and getting on an 
airplane. Is that in violation of CDC guidance?
    Dr. Walensky. The CDC is providing technical assistance to 
the Office of Refugee Resettlement from the people who are 
leaving the DHS and Custom Border----
    Mr. Scalise. So, let me ask you specifically. If somebody 
came from one of those countries that you just listed--you said 
every country but here you are specifically talking about 
Mexico--if they came from Mexico and then got on an airplane 
without a COVID test, does that violate CDC guidance?
    Dr. Walensky. This is guidance. It is not law. But those 
are the recommendations----
    Mr. Scalise. OK. So, does--no, it doesn't say 
recommendation. This is all are required. That is not a 
recommendation, Dr. Walensky. That is a requirement by the 
Federal Government for American citizens.
    Is there an exemption for people who come here illegally to 
this guidance?
    Dr. Walensky. They----
    Mr. Scalise. It is a yes or no question. Should everybody 
comply or just American citizens?
    Dr. Walensky. Everybody coming into the United States by 
air is supposed to have a test one to three days before coming 
and three to five days----
    Mr. Scalise. Well, then let me just advise you that the 
director of Homeland Security has testified that that is not 
happening. And so, I know you all meet with the president more 
than me.
    I have requested--I know our leadership has requested a 
meeting with the president and he has yet to meet with us. You 
will meet with him before I do.
    Can you let him know that he is violating your own CDC 
guidance in how he is running our southern border right now? 
Because look at these pictures.
    Dr. Fauci, does this look like social distancing to you 
that you require when you talk about six feet?
    Dr. Fauci. No.
    Mr. Scalise. So, in these cells, as you just said, they are 
violating the very guidance that you tell Americans to follow. 
A restaurant in the United States would be shut down today if 
they were being run like this.
    Yet, the Federal Government, the Biden administration, is 
running this facility. You can see all of these young children 
who are next to each other, six inches apart, many without 
masks, by the way. Does that follow your guidance that you have 
issued?
    Dr. Fauci. No.
    Mr. Scalise. Well, then why would the Biden administration 
not go and stop this? I think one of the reasons is President 
Biden and Vice President Harris won't even go see this for 
themselves.
    That is why I keep urging strongly that they go to the 
border. I would love for you all to go to the border to see 
this so you can at least give recommendations. They are 
violating every guidance that Americans are required to follow.
    Again, you look at the CDC guidance on Mexico, it is off 
the charts saying how dangerous it is. If you are an American 
citizen with the vaccination you have to--not should, have to--
get a COVID test saying you are negative to come back home to 
America.
    Yet, if you are coming here illegally, the Homeland 
Security secretary admitted in a hearing just the other day 
that they are not testing people who come here illegally.
    Dr. Fauci, do you think that sends the right message to 
America who--people are trying to recover and get back to the 
way of life, that if you are a citizen you follow this set of 
rules. But if you come here illegally, you don't have to follow 
any of your rules.
    Dr. Fauci. No doubt it is a very difficult situation at the 
border, Congressman.
    Mr. Scalise. Do you think this should get fixed?
    Dr. Fauci. Excuse me?
    Mr. Scalise. Do you think this should get fixed and they 
start following the same rules that you and I have to follow?
    Dr. Fauci. I mean, obviously, everyone would like to see 
that situation fixed, I know. But it is a very difficult 
situation that is----
    Mr. Scalise. Americans want to get back to their life, but 
they don't want two sets of rules either, and that is what is 
happening right now at our southern border.
    Mr. Chairman, I yield back.
    Chairman Clyburn. I thank the ranking member for yielding 
back.
    The chair now recognizes for five minutes Chair Waters.
    Ms. Waters. Thank you so very much for this important 
hearing, Mr. Clyburn. I just have to take a minute to tell you 
it is very emotional for me. As you know, my sister was one who 
was infected and died from COVID-19 and all that I had to 
depend on was Dr. Fauci.
    I would like to tell Dr. Fauci that you, literally, saved 
millions of folks who would only listen to your advice based on 
what was happening with the Trump administration and the 
president of the free world, Mr. Trump, who told--who 
disregarded, first of all, the fact that the virus was real and 
took too long to get started with any response to it.
    He told us it would just disappear, and then he recommended 
that we use disinfectant and he proceeded to have gatherings 
and himself, I believe, was the cause of so many Secret Service 
personnel and others who got infected.
    So, we depended on you, and I looked forward to you every 
day giving us some directions about what we should do. And when 
I go throughout communities and I see everybody masked it is 
because of you, Dr. Fauci, that we had to depend on, and I want 
to thank you so very, very much for what you have done for all 
of us.
    And I am so appreciative to the Biden administration, for 
all of you now, who have moved in a concerted direction to 
ensure that all communities are vaccinated and that, you know, 
the gaps that we had under President Trump where we didn't have 
enough testing, we didn't get enough vaccines, all of that is 
being corrected now and I want to thank all of you for being 
here today.
    And I just want to say to you, Dr. Walensky, you did 
recently describe racism as a serious public health threat and 
you said that the disparities seen over the past year were not 
a result of COVID-19. Instead, the pandemic illuminated 
inequities that have existed for generations.
    So, Dr. Walensky, what are the historic inequities that you 
were referring to and why is racism such a public health 
threat?
    Dr. Walensky. Thank you for that question. I am trained in 
HIV and AIDS, the reason I am an infectious disease doc. I can 
tell you that those communities that have been afflicted by HIV 
and AIDS have been a result of they are marginalized 
communities, vulnerable communities, communities of African 
Americans, Hispanic communities.
    You can look at more maternal mortality. You can look at 
risk of cardiovascular deaths, up 30 percent in marginalized 
communities, African-American and Hispanic communities.
    This has been--if you work in medicine, you see that people 
who are racially diverse, this is about where they live, where 
they work, how they travel, and all of the things that lead to 
their lack of access to care and their inability to get the 
same care as others.
    And so, this is not just a public health threat of COVID-
19. What I can tell you is that over the first six months of 
2020 there was one year of life expectancy lost for all 
Americans, 2.7 years of life expectancy lost for African 
Americans, and 1.9 years of life expectancy lost for Hispanic 
Americans.
    We have seen this in COVID-19. We are doing outreach now to 
reach marginalized, vulnerable, racial and ethnic diverse 
communities, and I believe that outreach has to stick because 
after we are done with COVID-19, we need to vaccinate 11 
million children that have lost their vaccinations.
    We need to control hypertension in these communities. We 
need to address maternal mortality in these communities. All of 
it will happen.
    Ms. Waters. Thank you. And I appreciate that the Biden/
Harris administration has taken actions to reach communities of 
color, rural communities, and low-income communities, including 
establishing a COVID-19 Health Equity Task Force, distributing 
vaccines directly to federally qualified health centers, and 
targeting funds toward underserved communities.
    Dr. Fauci, do you agree that we will not be able to fully 
recover from this pandemic if we do not take action to ensure 
that all Americans, including hard hit communities of color, 
receive coronavirus vaccines and, if so, why?
    Dr. Fauci. I absolutely agree with that, Congresswoman 
Waters, and that is the reason why equity is such an important 
part of the vaccine distribution program that we are carrying 
out right now.
    There are a number of reasons. One, in order to get this 
pandemic under control we have to get the overwhelming majority 
of the people in this country vaccinated.
    Second, because of the fact that minorities, brown and 
Black people, have a higher incidence of infection and when 
they do get infected they have a much higher incidence of a 
serious outcome including hospitalization and death.
    And for those reasons, both for the individual people who 
will suffer if they are not vaccinated as well as for the 
country itself when you want to get a veil or an umbrella of 
protection over the entire country, you have got to include all 
citizens from all groups from all demographic groups.
    Ms. Waters. Thank you so much, Mr. Clyburn. I appreciate 
you all but, Dr. Fauci, I love you. Thank you.
    [Laughter.]
    Chairman Clyburn. Thank you, Ms. Waters. The chair now 
recognizes Mr. Jordan for five minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    Dr. Fauci, when is the time?
    Dr. Fauci. Sorry?
    Mr. Jordan. When is the time?
    Dr. Fauci. When is the time? I am not sure what you are----
    Mr. Jordan. Well, in your written statement you say now is 
not the time to pull back on masking, physical distancing, and 
avoiding congregant settings. When is the time? When do 
Americans get their freedom back? Can you put your microphone 
on, please?
    Dr. Fauci. When we get the level of infection in this 
country low enough that it is not a really high----
    Mr. Jordan. What is low enough? Give me a number. I mean, 
we had 15 days to slow the spread turned into one year of lost 
liberty. What metrics, what measures, what has to happen before 
Americans get more freedoms?
    Dr. Fauci. My message, Congressman Jordan, is to get as 
many people vaccinated as quickly as we possibly can to get the 
level of infection in this country low that it is no longer a 
threat. That is when, and I believe when that happens you will 
see----
    Mr. Jordan. What determines when?
    Dr. Fauci. I am sorry----
    Mr. Jordan. What? What measure? I mean, are we just going 
to continue this forever? When does--when does--when do we get 
to the point? What measure?
    What standard? What objective outcome do we have to reach 
before--before Americans get their liberty and freedoms back?
    Dr. Fauci. You know, you are--you are indicating liberty 
and freedom. I look at it as a public health measure to prevent 
people from dying and going to the hospital.
    Mr. Jordan. You don't think Americans' liberties have been 
threatened the last year, Dr. Fauci? They have been assaulted, 
their liberties have.
    Dr. Fauci. I don't look at this as a liberty thing, 
Congressman Jordan. I look at this----
    Mr. Jordan. Well, that is obvious.
    Dr. Fauci [continuing]. As a public health thing.
    Mr. Jordan. But the----
    Dr. Fauci. I disagree with you on that complete----
    Mr. Jordan. Do you think the Constitution is suspended 
during a--during a virus, during a pandemic? It is certainly 
not.
    Dr. Fauci. This will end for sure when we get the level of 
infection very low. It is now at such a high level there is a 
threat again of major surge----
    Mr. Jordan. Dr. Fauci--Dr. Fauci, over the last year, 
Americans' First Amendment rights have been completely 
attacked. Your right to go to church, your right to assemble, 
your right to petition your government, freedom of the press, 
freedom of speech, have all been assaulted.
    I mean, for a year now Americans haven't been able to go to 
church. Even today, when they go to church they are limited in 
the size of worshipers who can meet. Your right to assemble? 
Oh, my goodness. We had a curfew last fall in Ohio. You had to 
be in your home at 10.
    In Pennsylvania, had to be in your home. When you are in 
your home, you had to wear a mask. In Vermont, when you are in 
your home you didn't have to wear a mask, Dr. Fauci, because 
you weren't allowed to have people over to your house.
    Dr. Fauci. Yes. Congressman Jordan----
    Mr. Jordan. Your ability to petition your government----
    Dr. Fauci. Well----
    Mr. Jordan. For a year--for a year American citizens 
haven't been able to come to their Capitol to petition their 
government, to talk to their representatives.
    And freedom of the press, these very pictures that 
Representative Scalise just showed you and talked about, guess 
what? The press isn't allowed in those facilities. The press is 
not, and the Biden administration will not let the press in 
there.
    And, certainly, freedom of speech--I mean, freedom of--the 
governor of our third largest state meets with physicians and 
that--and that video is censored because they dare to disagree 
with Dr. Fauci.
    So, I just want to know when do Americans get their First 
Amendment liberties back.
    Dr. Fauci. You know, I don't think anything was censored 
because they felt they couldn't disagree with me. I think you 
are--you are making this a personal thing, and it isn't.
    Mr. Jordan. It is not a personal thing.
    Dr. Fauci. No, you are. That is exactly what you are doing.
    Mr. Jordan. No, your recommendations carry a lot of weight, 
Dr. Fauci. We just had the chair of the Financial Services 
Committee said she loves you and you are the greatest thing in 
the world.
    Dr. Fauci. My recommendations are consistent----
    Ms. Waters. Will the gentleman yield? Will the gentleman 
yield?
    Mr. Jordan. No, it is my--it is my time.
    Dr. Fauci. Now, could I answer the question, please?
    My recommendations are not a personal recommendation. It is 
based on the CDC guidance, which is--which is underscored----
    Mr. Jordan. And I am asking the question what measures have 
to be attained before Americans get their First Amendment 
liberties back?
    Dr. Fauci. I just told you that. I told you----
    Mr. Jordan. No, you haven't given anything specific. You 
said we hope when this--tell me a specific----
    Dr. Fauci. Right now--right now we have about 60,000 
infections a day, which is a very large risk for a surge. We 
are not talking about liberties. We are talking about a 
pandemic that has killed 560,000 Americans. That is what we are 
talking about.
    Mr. Jordan. And I get that, Dr.--and I don't disagree with 
that and I understand how serious that is. But I also 
understand it is pretty serious when businesses have been shut 
down.
    People can't go to church. People can't assemble in their 
own homes with their friends, with their families. People can't 
go to a loved one's funeral. People can't get to their 
government, petition their representative to redress their 
grievances.
    Dr. Fauci. Right.
    Mr. Jordan. I also understand the First Amendment is pretty 
darn important and it is been a year, and I want to know when 
Americans will get those First Amendment liberties back.
    Dr. Fauci. Well, you just said people cannot assemble in 
their own homes. They can. That is a CDC recommendation for 
vaccinating----
    Mr. Jordan. Not last fall they couldn't.
    Dr. Fauci. I didn't hear that.
    Mr. Jordan. Not last fall they couldn't.
    Dr. Fauci. I didn't hear what he said.
    Chairman Clyburn. The gentleman's time has expired. I will 
tell you one instance of when we can get our liberties back. It 
is when 90 percent of the members of the U.S. Congress get 
vaccinated.
    Mr. Jordan. Well, I want to know if that is what Dr. 
Fauci--is it 90 percent, Dr. Fauci?
    Chairman Clyburn. That is what I am----
    Mr. Jordan. Is it 90 percent? That is what I am--that is 
what I would like to know. Give us some--give us some objective 
standards versus when certain things get reached we might be 
able to get back to having our liberty. When? What are the 
numbers?
    Chairman Clyburn. Well----
    Dr. Fauci. You are going to see a gradual from the--right 
now we are at an unacceptably high level. We are at--on a daily 
basis it is unacceptably high, regardless of who you are.
    What you are going to see as more and more people get 
vaccinated and we get over 3 million people a day, you are 
going to see the level of infection come down and down, and 
gradually there will be more flexibility for doing the things 
that you are talking about.
    Mr. Jordan. Where does it get to? When it comes down--what 
number do we get our liberties back? Tell me the number. Tell 
me the number.
    Chairman Clyburn. When 90 percent of the Members of 
Congress get vaccinated.
    Mr. Jordan. But you are not a doctor, Mr. Clyburn. He is. 
What is the number?
    Dr. Fauci. I can't give----
    Mrs. Maloney. Thank you for recognizing me, Mr. Clyburn. 
Thank you----
    Chairman Clyburn. The chair now recognizes, for five 
minutes, Mrs. Maloney.
    Mr. Jordan. I would like my question answered. I don't--I 
don't want--I don't----
    Mrs. Maloney. Reclaiming my time. Reclaiming my time.
    Ms. Waters. Regular order. Regular order.
    Mr. Jordan. No----
    Chairman Clyburn. Just a moment.
    Mr. Jordan. Mr. Chairman--Mr. Chairman, I don't want you to 
answer my question. The American people want Dr. Fauci to 
answer the question.
    Chairman Clyburn. Well----
    Mr. Jordan. What does it have to be?
    Mrs. Maloney. The time expired, sir.
    Ms. Waters. You need to respect the chair and shut your 
mouth.
    Chairman Clyburn. Don't worry about this. We are going to 
handle this, and I think Mr. Jordan knows me very well. He 
knows full well that we are going to handle this.
    Your time has expired and the chair now recognizes Mrs. 
Maloney.
    Mr. Jordan. Thank you, Mr. Chairman.
    Mrs. Maloney. Thank you, Mr. Chairman, for calling this 
important hearing and I thank all of the panelists for their 
dedication to public health and their being here with us today.
    I would like to ask--well, first, I would like to thank Dr. 
Fauci for serving, what is it, seven presidents? Selflessly 
trying to find answers to save people's lives.
    In my district, we call you America's doctor because you 
have selflessly worked to help the American people, and I want 
to thank you for always telling the American people the truth 
even when it is very difficult to hear, and it is not what we 
want to hear.
    But you tell us the truth, and you testified before the 
Oversight Committee back in March 2020, sitting at the same 
table, and I asked you, is it going to get better or worse and 
you testified it was going to get worse, and, tragically, you 
were right.
    Back then, in March, there were fewer than 50 known 
coronavirus deaths in the United States. And as of today, we 
have lost more than 560,000 Americans, more than any other 
country on Earth.
    And I am going to ask the same question. What is your 
assessment today? Is it going to get worse or have we finally 
turned the corner? Is it going to start moving in the direction 
we want it to go?
    Dr. Fauci. We are at a crossroads right now, Congresswoman 
Maloney. We are doing very well with regard to the rollout of 
vaccines and, yet, we are seeing in the country that there are 
several states in which the numbers are going up.
    When we had the big peak in the winter, during the holidays 
and beyond, then it came down. We would have liked to see it go 
all the way down to a very, very low level.
    Arbitrarily, we don't know what that number is, probably 
less than 10,000 per day. Right now, it is up at a high enough 
level that, in fact, if you look at the weekly average it is 
starting to creep up.
    So, as I said in my last slide, we are at a critical 
turning point. Every day, we get better and better at being 
able to control it because every day 3 to 4 million people get 
vaccinated.
    So, if we can get more and more people vaccinated, we 
almost certainly are going to be able to blunt an increase that 
is a sharp surge in the virus. So, when you say when, it is 
very critical now, which is the reason why every one of us, 
including the chairman, is saying let us get as many people 
vaccinated as quickly as we possibly can.
    That is the solution. If we do that successfully, then we 
will turn that corner. But we are right at that critical point 
right now, which is the reason why vaccination is so important.
    Mrs. Maloney. Well, that is the top priority of President 
Biden and I believe is the top priority of every Democrat and 
probably every person in America to get people vaccinated.
    The World Health Organization declared the coronavirus a 
global pandemic on March 11, 2020, the very same day that you 
testified before the committee, and I want to know when do you 
think the designation of a pandemic will be changed and no 
longer be considered a pandemic?
    Dr. Fauci. Well, there are multiple definitions for 
pandemic. The one that is most commonly used is an outbreak of 
a disease, of an infectious disease, that is highly 
transmissible and involves multiple regions of the world 
simultaneously.
    You can have an outbreak in one place. Like right now, they 
are having a mini epidemic of Ebola in countries in Africa. 
That is not a pandemic by any means because it is no place 
else.
    But if you look at the map of the world, you have now over 
120 countries that have this disease. So,``pan'' means all. 
When you get it down to the point where it is restricted maybe 
to very few places, and you have countries, hopefully, the 
United States, hopefully, a lot of other countries in the 
world, are free of this, then it is no longer a pandemic. That 
is what we mean by pandemic.
    Mrs. Maloney. And what are the key steps we have to take to 
make that happen faster, hopefully, besides vaccinations? Do we 
have anything----
    Dr. Fauci. Well, there are a couple of things. There are a 
couple of things that can do. One is until you get people fully 
vaccinated and get it under control where it is no longer a 
threat, it is the public health measures that we talk about 
almost every single day. The wearing of masks, the physical 
distancing, the avoiding congregate settings, the washing of 
hands.
    When the vaccine protection takes over, then you could have 
a gradual diminution of those types of guideline restrictions, 
which everyone would like to get rid of, not only Congressman 
Jordan.
    Mrs. Maloney. Well, my time has expired.
    Mr. Chairman, if we could submit questions to the record. I 
have other questions for the panelists.
    Thank you.
    Mr. Jordan. Mr. Chairman, just a question. Mr. Chairman?
    Chairman Clyburn. Yes, sir.
    Mr. Jordan. So earlier, you said--I just want to make sure 
we, the committee, heard you right. You said Americans get 
their First Amendment rights back when 90 percent of Congress 
gets vaccinated. Is that what you said?
    Chairman Clyburn. No.
    Mr. Jordan. OK. What did you say?
    Chairman Clyburn. I said we will get back to the number you 
request. We will get our liberties back to do what we wish when 
90 percent of the Members of Congress demonstrate to the 
American people that we will all be getting vaccinated. That is 
what will drive this down, vaccinations.
    Mr. Jordan. So, 90 percent of Congress gets vaccinated and 
Americans get their liberties back?
    Chairman Clyburn. In my opinion.
    Mr. Jordan. OK.
    Chairman Clyburn. In my opinion.
    Mr. Raskin. Mr. Chairman, a point of order. A point of 
order, Mr. Chairman. Can any member ask questions of the 
chairman----
    Chairman Clyburn. The chair now recognizes for five minutes 
Dr. Green.
    Mr. Green. Thank you, Mr. Chairman and ranking member, and 
thank you to our witnesses.
    I recently visited our southern border to see the 
conditions on the ground for myself and what I found was a 
crisis spiraling out of control.
    As a physician, I focused my time looking at the care given 
and the public health conditions as well as the threats to U.S. 
health posed by the failure of this administration to act and I 
would like to share what I thought were three startling 
observations related to COVID.
    First, a mass exodus of people after Biden canceled the 
asylum agreements has filled facilities to grotesque levels. In 
one pod built for 33, I saw 621 young girls crammed into that 
space stacked nearly on top of one another.
    They can't test for COVID so it only occasionally happens 
when they are turned over to the NGO's, and in that rate or in 
that group the positivity rate is 10 percent, and that means 
thousands and thousands of COVID-positive immigrants are being 
released into the U.S. monthly.
    Churches in several states still can't fully open, but the 
left seems completely fine with COVID incubators blasting 
positive patients into our population. If this committee fails 
to address this, this committee has no credibility whatsoever.
    Second, there is no vaccination assessments going on at 
all, and with many indigenous peoples coming through the border 
from Northern Triangle countries where vaccinations for things 
as rudimentary as measles is not confirmed, Americans are at 
risk for another massive health crisis.
    This administration's failure to ensure the American people 
are protected from this threat is an egregious violation of 
their oaths.
    Third, COVID variants. Right now, the U.S. doesn't have a 
huge problem with mutated variants of the COVID virus. There 
are some present. It is not a huge problem.
    While I was on the border, I met with family after family 
coming from Brazil. Brazil has a particularly nasty variant 
and, again, with no screening we simply have no idea how much 
of the positive patients are bringing COVID variants into our 
country.
    What do the members of this Select Committee on the 
opposite side of the aisle got to say about that? Crickets. 
There are a few more points that I want to make about public 
health in regards to this horrendous crisis caused by the Biden 
administration's failure.
    First, illicit drugs kill tens of thousands of Americans 
every year. Much of the heroin and fentanyl coming into the 
United States crosses our southern border, and while what we 
are able to catch comes through checkpoints for the most part, 
the volume bypassing those checkpoints during this crisis has 
skyrocketed.
    What they have seized since the president's executive 
orders opened our border has been an 800 percent increase. 
While we are there--while we were there, multiple splash and 
grabs happened.
    That is where the cartels just drive a dope-filled car into 
the river and the mules on our side go across with rafts and 
grab the drugs. Pounds of fentanyl was seized, not by Border 
Patrol agents but by Texas State Guardsmen.
    But they are not enough, and we know drugs, gang members, 
and guns are bypassing agents consumed with handling the mass 
sea of humanity pouring in. The agents are so overwhelmed the 
actual screenings to determine if a migrant is a drug 
trafficker are no longer done by law enforcement. We are paying 
NGO's to do it.
    Americans will suffer because of these criminals, and 
Biden--and Biden sits quietly by letting it happen. This is a 
gross dereliction of duty and, again, Americans will suffer 
because of his and Vice President Harris' failures.
    One last point. Currently, there is no DNA testing of those 
claiming to be families. We know how the cartels work. The 
Guatemalan ambassador told me they seize children, carry them 
across the border as a ticket into the United States. In some 
cases, when they get across the border they just dump the 
children.
    It is hard to believe except there is video after video 
showing it happening. Cartel members are claiming children and 
simply walking into the U.S. as fraudulent families. 
Essentially, by not testing these people we are encouraging 
human trafficking.
    Think about that. The Biden administration is facilitating 
human trafficking. Again, this is an egregious failure because 
they know it is happening and yet they do nothing. It is 
appalling. This is what we get with an open border.
    Americans are being infected with a deadly virus, 
potentially other pathogens. Coronavirus variants are pouring 
into the U.S. More Americans will die from drug overdose and 
more children and women are being trafficked and raped, and 
Biden and Harris sit in D.C. with no plans to visit the border 
and no solutions to offer.
    Anyone who attempts to cover this up by deflecting to B.S. 
accusations that this is Trump's fault are complicit in these 
crimes.
    With a nauseated stomach at this point by the failures of 
our president, I yield.
    Chairman Clyburn. I thank the gentleman from yielding back 
from that tirade. The chair now recognizes Ms. Velazquez for 
five minutes.
    Ms. Velazquez. Thank you, Mr. Chairman.
    In the name of liberty and freedom, you know, I just would 
like to discuss with Dr. Fauci we have over 500,000 people that 
died, and the truth matters here. Because President Trump talk 
about fake virus, that it will disappear by magic. Then when we 
have the vaccine, the infrastructure wasn't there to make sure 
the people have been getting the vaccination.
    So, obviously, elections have consequences, and we can 
start discussing the fact that today more than 120 million 
Americans, roughly, a third of the population, have received at 
least one vaccine dose.
    Dr. Fauci, what are we doing today that that we didn't do, 
that the previous administration didn't do, in getting the 
vaccination in people's arms?
    Dr. Fauci. Well, there has been a major effort to 
facilitate the distribution of vaccines that have multiple 
components to it. One is to get community vaccine centers, 
including in those areas that generally are underserved with 
minorities.
    Keeping equity is an important issue. Getting federally 
qualified health centers involved, getting pharmacies to play a 
major role in the distribution of vaccines, including 
pharmacies in those areas where the demography shows that we 
have minorities who are in need of a vaccine, to use mobile 
units as well as to get vaccinators, namely, people to put 
vaccine in the arms of individuals, and that includes the 
military, that includes retired healthcare providers such as 
doctors, nurses and others.
    So,there really has been a full-blown effort to try and get 
as many vaccines into as many people as we possibly can as 
quickly as we can, also, to address the issue of vaccine 
hesitancy, and the CDC has been given $3 billion to facilitate 
that. Maybe I could get Dr. Walensky to address there.
    Ms. Velazquez. Sure.
    Dr. Fauci. The CDC is playing a very important role in this 
distribution issue.
    Ms. Velazquez. And we have seen a higher percentage rate of 
African Americans' willingness to get vaccinated.
    Dr. Walensky. Yes. I want to acknowledge that we are 
working on this and we have more work to do. We know that there 
is 12 percent of Americans that are African American. Only 
eight percent of the vaccine has gone to them.
    We know that there is 19 percent of Americans that are--who 
are Hispanic and only nine percent of vaccine has gone to them. 
We saw some of the crowding out of people who are mobilizing to 
places where we intentionally put vaccine in high SVI areas and 
they were crowded out by other people. People traveled far to 
get vaccine.
    Right now, we have vaccine in 29,000 pharmacies with the 
goal of having vaccine within five miles of every single 
American-owned pharmacies. We are putting our community 
vaccination sites within high SVI regions and we are reaching 
out to the federally qualified health care centers in 
collaboration with HRSA.
    Ms. Velazquez. Thank you.
    Dr. Kessler, I will turn to you. As the leader of a vaccine 
development efforts, what are you doing to prepare for the 
potential spread of variants, especially those that may be more 
contagious or resistant to vaccines?
    Dr. Kessler. It is a very important question, 
Congresswoman. We are studying--we are monitoring the efficacy 
of the current vaccines against these variants. As my 
colleagues, I am sure, will join in, luckily, against these 
variants we are seeing clinical evidence of strong efficacy.
    Even though these current vaccines work against these 
variants, we are taking steps to develop the next generation of 
vaccines that are directed against these variants if, in fact, 
they could be more effective.
    Ms. Velazquez. I would like to ask this question because I 
know that it is in people's mind, at least I am asking myself. 
Should we expect to need vaccine boosters in the coming months?
    Dr. Kessler. Again, a very important question and the 
answer is we don't know everything at this moment. We are 
studying the durability of the antibody response. It seems 
strong. But there is some waning of that, and no doubt that the 
variants challenge, right--I mean, they make these vaccines, in 
essence, work harder.
    So, I think that for planning purposes, and planning 
purposes only because there is no decision, I think we should 
expect that we may have to boost and probably have to boost 
again. No decision, but the current thinking is that, 
certainly, those who are more vulnerable may have to go first.
    But I think you have--with many vaccines, we understand 
that at a certain point in time we need to boost, whether that 
is 9 months, 12 months, and we are preparing for that time.
    Ms. Velazquez. Thank you. I yield back.
    Chairman Clyburn. Thank you very much.
    The chair now recognizes for five minutes, Ms. Miller-
Meeks.
    Ms. Miller-Meeks. Thank you, Mr. Chair.
    As a physician and a former director of the Iowa Department 
of Public Health, I have a variety of questions that I could 
ask, which would take longer than five minutes. So, some of 
them I would like you to answer very briefly.
    So, there is a traditional definition of herd immunity. 
Herd immunity comes about by having naturalized immunity from 
contracting a disease and/or vaccination.
    So, Dr. Kessler, what is the level of herd immunity, to 
your understanding? Please, very brief.
    Dr. Kessler. What is the----
    Ms. Miller-Meeks. Well, at what level of the population has 
to be--has to have immunity for us to have herd immunity and 
protection? Is that 50 percent? Is that 60 percent? I just want 
a number.
    Dr. Kessler. Congresswoman, no one knows. In my view, I 
don't know the exact number. I can give you estimates of what I 
think will bring down the numbers that----
    Ms. Miller-Meeks. Dr. Fauci?
    Dr. Fauci. You are asking me?
    Ms. Miller-Meeks. Yes, sir.
    Dr. Fauci. We don't know that for this particular 
infection. We know it for other----
    Ms. Miller-Meeks. What is typically considered traditional 
letter in public health for herd immunity? When we talk about 
measles, when we talk about any other disease?
    Dr. Fauci. Well, measles, it is--it is 90 percent. You get 
below that you start getting into trouble.
    Ms. Miller-Meeks. And but that----
    Dr. Fauci. But herd immunity is due to a number of things. 
You have to worry about, A, the combination of the vaccine 
plus----
    Ms. Miller-Meeks. I understand. Dr. Walensky, I just wanted 
a brief--because that goes to part of the question when do we 
get out of this.
    Dr. Fauci. OK.
    Dr. Walensky. The epidemiologic term of herd immunity is 1 
minus 1/Rt. Rt for this virus is somewhere between two and 
three. But we know with variants that that Rt is changing over 
time, increased transmissibility.
    So, in fact, I think it is changing, given the variants.
    Ms. Miller-Meeks. OK. Thank you very much.
    So, the reason I asked that question is that you have said 
that were--between vaccinating as many people as quickly and as 
expeditiously as possible as we have the emergence of new 
variants.
    As a member of the Doctors Caucus, we submitted a letter to 
the FDA that the FDA use real-world evidence that we have 
gained from Israel and the U.K. in elongating the--between the 
prime dose and the secondary dose for the Pfizer and the 
Moderna vaccine.
    This would enable us to get as many people possible 
vaccinated with the prime dose and then within a 12-week span 
get their second dose. This is especially important as we are 
opening up to young adults and children.
    So, 16-to 17-year-olds have then emergencies authorization 
approved for Pfizer, and we know 12-to 15-year-olds, as 
published recently, have 100 percent effectiveness.
    So, now that we have a vaccine that has gone on to pause, 
would you be supportive of asking the FDA to use real-world 
evidence in order to increase the duration between the first 
and second dose of Pfizer and Moderna so we can get more people 
vaccinated?
    Dr. Kessler, yes or no?
    Dr. Kessler. I think it is more complicated than a yes or 
no, Congresswoman.
    Ms. Miller-Meeks. OK. Dr. Fauci?
    Dr. Fauci. Same thing. It is a complicated issue.
    Ms. Miller-Meeks. Dr. Walensky?
    Dr. Walensky. It is complicated.
    Ms. Miller-Meeks. OK. I am glad to see you all putting your 
medical information and real-world evidence on the line to 
answer that question when we are trying to get as many people 
vaccinated as possible as rapidly as possible.
    Earlier this week, I made a second trip down to the border, 
and I can tell you firsthand that the number of migrants 
crossing constitutes a crisis, and we all know that the COVID-
19 pandemic is not over.
    I saw migrants apprehended at 11 p.m. at night, who, on the 
next day, were on planes with Members of Congress. Not that it 
matters if you are a Member of Congress, but just meaning we 
saw them so we know that this is real. And these migrants are 
flying all over the country.
    I had specifically authored and put forward a bill that all 
migrants be tested at the Central Processing Facility.
    Dr. Fauci, do you think all migrants crossing our borders 
from any borders should be tested for COVID-19 before entering 
this country or being sent to other places within our country?
    Dr. Fauci. Ideally, that would be the case.
    Ms. Miller-Meeks. OK.
    Dr. Walensky, what are the requirements for U.S. citizens 
returning home from overseas? Do they have to show proof of a 
negative test before entering and what kind of negative test?
    Dr. Walensky. They have to show proof of a negative test or 
having had disease within the prior three months to enter by 
air.
    Ms. Miller-Meeks. OK. Are any of you aware of what kind of 
tests migrants are given and when they are given tests?
    Dr. Walensky. Testing is occurring as they leave CBP on the 
way to OR facilities.
    Ms. Miller-Meeks. So, typically, testing is at--they are in 
facility so they have been in a--the Central Processing 
Facility, transiting, and then sent to a community either by 
air or by bus to another community, and then having testing.
    So, again, I would say, do you recommend that migrants have 
testing at the border? And if so, will you put forth that 
recommendation?
    Dr. Kessler?
    Dr. Kessler. Certainly, will yield to my colleagues. It 
is----
    Ms. Miller-Meeks. Dr. Fauci?
    Dr. Fauci. Ideal conditions you would want to get testing 
at the border. Yes.
    Ms. Miller-Meeks. Dr. Walensky?
    Dr. Walensky. We are working to get testing and vaccines at 
the border for people, eligible workers as well as people who 
are eligible.
    Ms. Miller-Meeks. I would, certainly, appreciate your 
support for my bill to test migrants at the border.
    Thank you, Mr. Chair. I yield back my time.
    Chairman Clyburn. I thank the gentlelady for yielding back.
    The chair now recognizes Mr. Foster for five minutes.
    Mr. Foster. Thank you, Mr. Chair.
    Dr. Kessler, I would like to ask a little bit about the 
sort of the level of detail, the planning, for in case we need 
boosters for variants or so on.
    Do we have manufacturing capability reserved for the major 
candidate vaccines? Because--or is that manufacturing capacity 
when the U.S. gets its first vaccine, is that now being 
dedicated and contracted to providing vaccines for the rest of 
the world?
    Dr. Kessler. It is an excellent question, Congressman.
    We are in discussions right now, making sure that we can 
secure those vaccines for boost or variants. We are in that 
process right now.
    Mr. Foster. All right. So, but at this point, there is 
not--there are not contracts in place that guarantee that we 
will have access if we do need, you know, a significant effort 
for a third dose for Americans?
    Dr. Kessler. Yes.
    Mr. Foster. OK. Yes, if you can keep us posted on that. We 
have very effective interface through the GAO, who is Congress' 
typical, you know, interface to the Oversight.
    And so just letting them see the project management plans 
for those sort of contingencies, I think, would be very 
valuable. Representative Green and I have had really good 
results working through them and I urge you to continue and 
strengthen all your collaboration with them.
    Dr. Kessler. We would be happy to do so, sir.
    Mr. Foster. Yes.
    Let us see. Another question involves the effort toward 
therapeutics. You know, I am--I am concerned that not enough 
attention may have been placed on the need for therapeutics and 
the need to continue, you know, approving new COVID treatments.
    The therapeutics, they may become increasingly important as 
the--as the virus pandemic disappears and we are now dealing 
with occasional flare ups. I was rather disappointed, you know, 
that the--although the antibody therapeutics seemed to work 
pretty well, we didn't really have in place, you know, the mass 
treatment centers to use them, and so these quite effective 
medicines ended up sitting on a shelf.
    Can you say anything, I guess, Dr. Kessler, about what the 
plans are, going forward, to make sure that not only do we have 
the therapeutics but they actually can get to the patients who 
need them?
    Dr. Kessler. Again, an excellent question. Over the last 
month, we have stepped up our efforts to provide the monoclonal 
antibodies directly because for those who test positive, early 
stage of the disease but at high risk, monoclonal--the 
administration of monoclonal antibodies can save lives.
    Dr. Fauci and I are working on stepping up a program for 
increased antiviral drug discovery. That is going to be 
absolutely critical. We need better molecules and small-
molecule therapies, especially there are going to be certain 
people for whom the vaccine does not provide protection, and we 
are going to need to offer that.
    So, we have to develop better antiviral therapies.
    Mr. Foster. Dr. Walensky, can you say a little bit about 
the monitoring of, I think, what are called vaccine 
breakthrough events?
    That when someone, you know, gets sick despite being 
vaccinated. You know, what level of surveillance is going into 
that right now and--yes.
    Dr. Walensky. Thank you for that question.
    Mr. Foster. It is important.
    Dr. Walensky. Indeed, and, in fact, just this morning, we 
announced where we are. Seventy-seven million people 
vaccinated, 5,300 breakthrough infections that we--or 5,800, I 
am sorry, that we are aware of, 396 of whom were hospitalized 
and there have been 74 deaths.
    So, we are keeping a close eye on this. We are reaching out 
to all of our state health officials as well as to our 
hospitals to make sure that people who are identified as a 
breakthrough infection we can--we can--and defined as two weeks 
after your second dose or you are two weeks after your final 
dose, so that we can identify the cases that we are having.
    Mr. Foster. And do you collect more detailed information on 
the--you know, the genetics, just everything about those 
breakthrough patients?
    Dr. Walensky. Yes, and we are partnering with academic 
institutions as well. Not all of these can be sequenced. But we 
would like to make sure that some of these are sequenced.
    Some of these breakthroughs are, of course, failure of an 
immune response in the host, and then some of them we worry 
might be related to a variant in--that is circulating. So, we 
are looking at both.
    Mr. Foster. Well, I am glad you are on the case, and I 
yield back.
    Chairman Clyburn. I thank the gentleman for yielding back.
    The chair now recognizes Ms. Malliotakis for five minutes.
    Ms. Malliotakis. Thank you, Mr. Chairman. Thank you all to 
the doctors for being here today and sharing your wisdom with 
us and giving us an update on what is happening.
    You know, I wanted to talk about just, really, with you 
about some of the hypocrisy and double standards that we are 
seeing.
    Because, Dr. Fauci, you said it--you know, your 
recommendations are consistent. Some of the policies that we 
are seeing coming out of, you know, this administration or some 
of the leaders on the local and state levels, really, is a 
double standard.
    So, for example, you know, I wanted to ask you your 
thoughts on the--on the U.S.-Canada border remaining closed. 
And this is something that is having an economic impact.
    No nonessential travel is having a impact on families that 
want to vacation as well, and then we see the southern border 
being completely wide open.
    And I wanted to see if you thought that was an 
inconsistency and that we should be consistently moving 
forward. This is a decision that is going to be revisited next 
week. So, I wanted to know what your thoughts are on keeping 
the northern border closed.
    Dr. Fauci. Congresswoman, I am not an expert on border 
controls, but it is very clear that the situation at the 
southern border is really, really profoundly different than the 
situation that I can see.
    Just as a private citizen looking at it, not as a medical 
person but just looking at the need to get into the country 
from the individuals who are coming from a variety of other 
countries using Mexico as a gateway to get in versus the 
situation in Canada.
    It is really, clearly, very, very different.
    Ms. Malliotakis. But they are citing public health as a 
reason to keep the northern border closed. So, my question is, 
you know, individuals flowing from 60 different countries not 
being tested, perhaps bringing in variants, that should be, I 
think, a concern and I would just recommend that, you know, we 
have some consistency in this policy, moving forward. It is 
either a public health crisis or it is not, and that is just, 
like, one of the things I wanted to, you know, bring up today.
    And I think the other thing is, you know, my colleague 
really made a good point in describing the situation at these 
facilities, and I was there along with him in this trip and 
when you see how these facilities--COVID capacity of 250, you 
have 4,000 individuals, and then you come to New York City and 
you are telling--maybe not you, maybe it is our mayor--telling 
us that we cannot have kids in school five days a week.
    Just it is that type of double standard, the fact that 
these facilities could be at 900 percent capacity and my local 
restaurants are at a 50 percent capacity and they are 
struggling to keep their doors open.
    That is the type of inconsistency and the double standards 
that we are seeing from our leadership, whether that be 
national, state, or local.
    In my case, it is--a lot of it is local. And, you know, the 
president did say he wants to open our schools within the first 
100 days of his administration. That is approaching.
    That is approaching in the next week or two. And we still 
don't see that there is any plan, despite the fact that we gave 
the money. In the December CARES package the money was put in.
    The CDC recommended, saying it was going to be a $28 
billion dollar estimated cost. They put in $64 billion and the 
schools are still not open. New York has received $4 billion of 
that money.
    So, I would just--you know, since you meet with the 
president regularly, I would just bring up some of these 
inconsistencies and double standards that we are seeing, and 
say that if we want people to follow these rules and these 
guidelines, they need to be consistent and they need to be 
fair.
    Any comment? I would appreciate that.
    Dr. Walensky. On February 12, we released our initial 
guidance in this administration on getting schools open 
February 19.
    We updated those guidance based on updated science, and for 
all levels of community transmission the guidance recommends 
full in time in-person learning five days a week.
    There are some restrictions and high levels of transmission 
in high school students if they are not able to maintain six 
feet apart. But for the most part, this was a guidance and an 
operational plan to open schools.
    Ms. Malliotakis. Well, I hope you can share that with Mayor 
de Blasio. Thank you.
    Chairman Clyburn. Does the gentlelady yield back?
    Ms. Malliotakis. I am done for this round. Thank you.
    Chairman Clyburn. Thank you for yielding back.
    The chair now recognizes Mr. Raskin for five minutes.
    Mr. Raskin. Thank you, Mr. Chairman.
    Dr. Brooks, who was Donald Trump's coronavirus response 
coordinator in his administration, just told America that 
hundreds of thousands of COVID deaths of Americans could have 
been prevented by the Trump administration had it acted more 
forcefully and effectively to counter the disease rather than 
denying it and diminishing it and trivializing it.
    It would take a week to describe all of the lethal failures 
of the Trump administration and his congressional enablers in 
the coronavirus response. Let us take this one. Scientists all 
over the world were shocked when some of Trump's top political 
advisors were openly pushing for a herd immunity strategy to 
deal with the coronavirus.
    And last year, I asked his HHS secretary about this and he 
assured us that herd immunity was not the official strategy of 
the government with respect to corona.
    But just days later, he went to a private meeting with 
three major advocates of the herd immunity strategy, and the 
subcommittee revealed emails showing that a Trump appointee 
stated, and I quote it--please put this up if you would, Mr. 
Chairman--``We need to establish herd. Infants, kids, teens, 
young people, young adults, middle-aged with no conditions have 
zero to little risk. So, we use them to develop herd. We want 
them infected. We want them infected.''
    Dr. Fauci, in your expert opinion, is deliberately exposing 
Americans to infect them with the coronavirus a sound public 
health strategy?
    Are there any categories of Americans named by this Trump 
appointee that we want to see infected--infants, kids, teens, 
young people, middle aged?
    Chairman Clyburn. Your mic is not on.
    Dr. Fauci. As I have mentioned many times in different 
committee hearings, the best way to get protection of the 
community is to vaccinate them, and I had great concerns about 
essentially letting people get infected for the purpose of 
getting enough immunity in the community to then get to this 
elusive terminology of herd immunity.
    The best way, and repeat it--we are all saying the same 
thing--is to get as many people vaccinated as quickly as you 
possibly can, and before all of them are vaccinated to protect 
everyone from getting infected by the implementation of the 
public health measures that we talk about all the time--the 
mask wearing, the physical distance, and the avoiding of 
congregate settings.
    Mr. Raskin. Dr. Kessler, at one point Donald Trump, trying 
to invoke his herd immunity theory, accidentally called it herd 
mentality and it was a telling Freudian slip because it is, in 
fact, a herd political mentality which has enabled these 
dangerous anti-scientific dogmas.
    To what extent is anti-scientific conspiracy theory and 
propaganda a threat to our ability to crush the virus or, 
indeed, to counter any of the public health problems facing us 
today, whether it is climate change or gun violence or anything 
else? Is a political herd mentality trying to overrun 
scientific findings and data a problem for us?
    Dr. Kessler. Congressman, I think your point is probably 
the one that gives me the greatest pause. I think the greatest 
risk right now is the issue of vaccine hesitancy.
    I think over the next several weeks, we are going to have 
more supply. Twenty-eight million doses a week we are putting 
out, and I think demand is going to decrease versus what we see 
today, and I think that is a result of vaccine hesitancy and I 
think we need to confront that directly.
    I think--and I don't think we can just put it aside. I 
think we have to realize that it is very real. There are those 
who distrust the healthcare system, there are those who 
distrust government, and I think we need to address that head 
on.
    I am enormously pleased to be sitting here with all the 
debate that has gone on around. What I heard from the chair and 
the ranking member and from everyone here, I assume this is 
correct. But we really need to encourage all our fellow 
citizens to get vaccinated, because while we don't know----
    Mr. Raskin. And do you believe, Dr. Kessler, if 100 percent 
of Members of Congress were vaccinated that that would send a 
positive signal to the population?
    Dr. Kessler. Yes.
    Mr. Raskin. My time is up. Thank you, Mr. Chairman. I yield 
back.
    Chairman Clyburn. Thank you very much.
    The chair now recognizes Mr. Krishnamoorthi. Is he here?
    Mr. Krishnamoorthi. Thank you.
    Chairman Clyburn. Oh, I am looking for you to be visual. 
Thank you so much for being in person today.
    [Laughter.]
    Mr. Krishnamoorthi. Good afternoon, everyone. Thank you so 
much for your service to our country. Thank you for being here 
today.
    Dr. Fauci, on April 13, Fox News host Tucker Carlson talked 
about the effectiveness of vaccines on his primetime show, and 
he said, quote, ``Maybe it doesn't work and they are not 
telling you that,'' close quote. On April 14, yesterday, during 
the day on CNN, you called Carlson's statements, quote/unquote, 
``A crazy conspiracy theory.''
    Last night, Mr. Carlson responded to you, saying it is not 
a conspiracy theory. He said, referring to vaccine, quote, ``If 
this stuff works, why can't you live like it works? Why are you 
wearing a mask?''
    Well, what is the answer, Dr. Fauci?
    Dr. Fauci. The vaccine trials that were done that showed 
the high degree, 94-95 percent efficacy, the primary endpoint 
of the vaccine efficacy was to prevent clinically relevant 
disease--clinically recognizable disease.
    What we don't know right now but we will know as we gather 
more information that you can get infected even though you have 
been vaccinated, and because you are vaccinated have no 
symptoms.
    And, therefore, you could have virus in your nasal pharynx 
and you could then transmit it inadvertently to somebody else. 
You are vaccinated. You are protected. You are not getting 
sick.
    So, the wearing of the mask is predominantly--predominantly 
to prevent you inadvertently infecting someone else, even 
though you are protected from disease by the vaccine.
    As we learn more and more, which we will, and the evidence 
gets better and better that a vaccinated person has a much 
lesser chance of getting infected asymptomatically and even if 
they do the virus is very likely very low in the nasal pharynx, 
when those data become clear, the CDC, being a science-based 
organization, will use that scientific data to say now a 
vaccinated person can actually walk around without a mask.
    Mr. Krishnamoorthi. Got it. So, basically----
    Dr. Fauci. There is another issue also. One other thing, 
sir. Let me say----
    Mr. Krishnamoorthi. Yes. Go ahead.
    Dr. Fauci [continuing]. What is important is that there are 
variants that are circulating, too, and we want to make sure 
that if you have full protection against one type of a virus 
that a variant might come along that might escape the 
protection.
    So, if you want full protection and you are out in the 
community where there is a lot of virus out there, that is why 
we still recommend wearing a mask.
    And in answer to a question before, when you get the level 
of virus really low all of that is going to go away, and you 
are not going to have any--very, very little risk. Therefore, 
people will not have to wear masks.
    Mr. Krishnamoorthi. Got it.
    Let me show you this chart, Dr. Fauci. It is of the United 
States. It is a map created by the CDC. Basically, what it does 
is it shows the highest incidence of COVID since the start of 
the pandemic. The darkest blue is where COVID rates were the 
highest per 100,000 residents. There are four in the middle of 
the country--North Dakota, South Dakota, Utah, and Tennessee.
    I want to direct your attention to South Dakota for one 
moment. The governor of that state is a woman named Kristi 
Noem. Governor Noem said the following: ``We never instituted a 
shelter in place order. We never mandated that people wear 
masks. We never defined what an essential business is.''
    That is what she said at something called CPAC, the 
Conservative Political Action Conference, in February. And, in 
fact, she invoked you during that speech and she said, ``I 
don't know if you agree with me, but Dr. Fauci is wrong a 
lot.'' And then you responded, saying the numbers in South 
Dakota, quote/unquote, ``don't lie.''
    What did you mean by that?
    Dr. Fauci. Well, at the same time that the governor was 
saying that, if you look at the number of hospitalizations and 
deaths per population, South Dakota is way up there in that 
particular category. So, I don't think that is a good track 
record.
    Mr. Krishnamoorthi. That is not a successful administration 
of COVID-19, correct?
    Dr. Fauci. Excuse me?
    Mr. Krishnamoorthi. That is not a successful handling of 
COVID-19, correct?
    Dr. Fauci. If you are using hospitalizations and deaths as 
a parameter, that is not very successful.
    Mr. Krishnamoorthi. Dr. Walensky, there was something 
called the Sturgis motorcycle rally in South Dakota. Four 
hundred and sixty-thousand people showed up. No one was wearing 
masks.
    In a CDC study in a morbidity and mortality weekly report, 
it was found that 34 percent of counties in Minnesota 
experienced COVID-19 cases related to the Sturgis rally.
    Dr. Walensky, is it fair to say that what happened in South 
Dakota with regard to not adopting restrictive measures on 
COVID-19 caused deaths in Minnesota?
    Dr. Walensky. We were very worried when people came to that 
rally that they would get infected and bring it home. So, I 
can't tell you the individuals but that was the concern at the 
time.
    Mr. Krishnamoorthi. And you can't rule out deaths in 
Minnesota related to the Sturgis rally?
    Dr. Walensky. No.
    Mr. Krishnamoorthi. Thank you.
    Chairman Clyburn. Thank you very much.
    The chair now will move to a second round of questions, and 
I now recognize Mr. Scalise for five minutes.
    Mr. Scalise. Thank you, Mr. Chairman.
    And at first just--I know it has been talked about a lot on 
what percentages should be or shouldn't be vaccinated. I would 
not--I would push back on the suggestion that Americans only 
get their liberties back if a certain percentage of Members of 
Congress get vaccinated.
    I would like to use the science--I am talking about medical 
science now, not political science--on this.
    Let us start with schools. Dr. Walensky, you have talked 
about this a few times, but you were quoted as saying, quote, 
``Safe reopening of schools does not suggest that teachers need 
to be vaccinated in order to reopen safely,'' end quote.
    CDC since put out guidance that talks about the things that 
need to happen to reopen schools. It is really focused on 
social distancing and wearing masks. I don't even think you all 
mentioned vaccinations.
    You know, and teachers should be prioritized, in most 
states are prioritized for vaccinations. But the CDC guidance 
doesn't mention it.
    Do you still stand by the statement that you made that safe 
reopening of schools does not suggest that teachers need to be 
vaccinated in order to reopen?
    Can you----
    Dr. Walensky. ACIP recommends teacher and educator 
vaccination.
    Mr. Scalise. But you are the CDC director. What is your 
recommendation? Do you stand by what you said?
    Dr. Walensky. The CDC guidance specifically----
    Mr. Scalise. Let me ask specifically about what--you said 
that statement I just read. Do you still stand by that 
statement, yes or no?
    Dr. Walensky. I do.
    Mr. Scalise. You do? OK.
    And, Dr. Fauci, you have also made comments about the CDC 
guidance on schools. You were asked about school re-openings 
and you said, quote, ``I would back the CDC recommendations 
because that is really based on data,'' and you just heard the 
CDC director said that safely reopening schools should really 
be conditioned upon the social distancing and on masks. Do you 
stand by that as well?
    I can't hear. If you can turn your microphone on, please.
    Dr. Fauci. Yes.
    Mr. Scalise. So, you do stand by that.
    So, again, vaccinations should be available to all 
teachers. Most states are doing it. Those that aren't should 
prioritize teachers. But reopening schools should really be 
based on that science, right. The medical science that social 
distancing and mask protocols are what drives that. Is that 
correct?
    Dr. Fauci. Yes.
    Mr. Scalise. And I would imagine you acknowledge, as I have 
seen--I have seen so much medical data that shows the damage. 
You know, we have talked about COVID deaths, and they are all 
tragic.
    We have seen a lot of other deaths in America, deaths tied 
to depression because people can't go about their lives. That 
is a real factor. We have seen so many young kids, millions 
today that still can't go back in the classroom, not because of 
medical science, because of political science that is 
destroying these kids' lives.
    Do you recognize that it is causing depression, drug 
overdoses, drug abuse from--for kids tied to some of those 
decisions?
    Dr. Fauci. The psychological effects of keeping children 
out of school are well known. It definitely is not something 
that is favorable for children. It is much to their advantage 
to be in school.
    Mr. Scalise. Well, I appreciate that. And I hope that all 
of the school systems across America follow the medical science 
and stop this political science destruction of kids, trying to 
hide behind science when, in fact, as the CDC director just 
said, Dr. Fauci just said, schools absolutely should reopen.
    The CDC guidance is very clear on what it takes to reopen, 
and it is social distancing and masks. Follow that medical 
science.
    Now I want to get back to the pictures that I showed 
earlier about the Donna Detention Facility. And so now you both 
had a chance to see them. You both looked.
    Let me just ask you, if it is a restaurant in any state. If 
a restaurant is set at 250-person capacity and there is a 
thousand or 4,000--4,000 people in a restaurant that is set for 
250-person capacity, Dr. Fauci, would you consider that a major 
concern and probably--wouldn't that restaurant be shut down?
    Dr. Fauci. It would be a major concern, yes.
    Mr. Scalise. So, you go to the Donna Detention Facility 
today, and I was just there Friday morning, six days ago, in 
Donna, Texas, at that detention facility rated for 250 people.
    Border Patrol told us there were over 4,000 people, young 
kids in that facility that day, six days ago. Not six feet 
apart. As you can see, in most cases, six inches apart, many 
without masks. Do you consider this a major concern?
    Dr. Fauci. Yes.
    Mr. Scalise. So, again, and I would--I would urge you, 
because you have closer access to President Biden than I do, I 
would--I really want President Biden to go see this. He ought 
to see this. He won't see it. Vice President Harris won't see 
it. You have seen it and you know what the science says, the 
medical science.
    Could you please urge President Biden? He can fix this 
right now. There are three major things he did. The remain in 
Mexico policy was working. Every Border Patrol agent tells you 
that. President Biden got rid of it.
    It has caused this magnet of these young people being 
exploited, abused, exposed to COVID. They say at least 10 
percent of COVID--of these kids are COVID positive.
    If you look at these conditions and 10 percent of the 
people in this room are COVID positive, do you think, 
ultimately, way more than 10 percent will get COVID and then 
get on an airplane without a COVID test, as they are being 
done, sent around the country? Is that a major concern?
    Dr. Fauci?
    Dr. Fauci. Yes, that would be a major concern. Yes.
    Mr. Scalise. It is happening right now. It needs to end. 
President Biden can end this today. He needs to stop this 
national health crisis and the super spreader COVID event that 
he has created at our southern border.
    I yield back.
    Dr. Walensky. May I just add one thing, Representative?
    And just for the record to show that our school guidance 
does, in fact, speak to vaccination. We have layered mitigation 
strategies. We say it is not conditional upon safe reopening of 
school----
    Mr. Scalise. But not conditional. The guidance, clearly--
socially distanced, wear masks to reopen schools today. Thank 
you for that.
    Chairman Clyburn. Thank you.
    The chair now wishes to accommodate the schedule of Mr. 
Raskin and we are going to yield to him.
    Mr. Raskin. Mr. Chairman, I am very grateful to you.
    Dr. Walensky, your predecessor, Dr. Redfield, admitted 
recently that he was repeatedly instructed by Trump 
administration officials to pressure and change scientific 
reports the data--the conclusion for recommendations.
    As the new CDC director, do you think it is a danger to 
public health to have political appointees from outside the 
agency dictating findings and conclusions to CDC's scientists?
    Dr. Walensky. I have let the American people know that the 
CDC is going to be led by science and our subject matter 
experts that review that science.
    When I became CDC director on January 20, I asked Dr. Anne 
Schuchat, my principal deputy, to review all of the guidance 
that was on the CDC website related to COVID and to ensure that 
it was backed by our CDC experts and our subject matter 
experts.
    And in that review, three pieces of guidance came down--two 
had actually come down prior to my arrival, and one soon 
thereafter.
    Mr. Raskin. Well, I think the American people can rest 
assured that we are in the hands of real science now and not 
the right-wing political science being dictated by the Trump 
administration.
    Dr. Fauci, I want to followup on a line of questioning that 
Mr. Scalise began about whether you would have major concern in 
certain situations.
    Donald Trump mobilized a crowd of tens of thousands of 
people to stop the steal on the false allegation that he had 
actually won the 2020 Presidential election.
    I think this is decisive refutation in itself that people 
have been able to exercise their First Amendment liberties to 
assemble and speak and so on.
    But then at least 800 or 900 of them went way beyond their 
legitimate First Amendment liberties. They stormed the Capitol. 
They broke windows. They assaulted police officers--the Capitol 
police, the Metropolitan Police Department. Over 90 percent of 
these people, closer to 100 percent, did not have masks on.
    And do you think that this caused a super spreader event? 
Because hundreds of Capitol officers and MPD officers and 
others have come down with COVID-19 since the violent 
insurrection unleashed against the Capitol in an attempt to 
overthrow the 2020 election. Would that be a major concern for 
you, too?
    Dr. Fauci. You know, as I have said many times, that any 
congregate setting where you have massive numbers of people who 
are not wearing masks always poses a risk for a super spread 
situation, regardless of where that congregation is.
    Mr. Raskin. Well, these people were pressed up against each 
other. They were coughing, spitting. There was tear gas in the 
air. A lot of them had brought bear mace. They were assaulting 
police officers face to face.
    We have lots of photo footage of it. I didn't bring the 
photos this time, but I will just because I know Mr. Scalise 
will be extremely concerned about it when he sees the 
photographs of what that mob was doing.
    Would you consider that something really dangerous for 
people to do, to show up without masks, to be assaulting police 
officers, to be screaming, chanting, yelling, all in the 
context of people also coughing and sneezing because of tear 
gas, mace, and bear mace and other chemical irritants brought 
by these domestic violent extremists?
    Dr. Fauci. You know, as I have said, Congressman Raskin, 
any kind of congregate setting where you have that type of a 
circumstance where people are crowded together without masks 
definitely poses a risk for a super spreader event.
    Mr. Raskin. OK. Thank you.
    And, Dr. Kessler, let me ask you this. The vaccines are a 
remarkable triumph for science and investment and in scientific 
research and development. They are a decisive refutation of all 
the anti-scientific propaganda, irrationalism, magical 
thinking, wishful thinking, that we saw over the last four 
years.
    And, yet, that same kind of anti-scientific dogma now 
proves to be a blockade to our ability to make progress on a 
whole host of other problems like gun violence, for example, 
where there are people who don't want us to have scientific 
research on gun violence as a public health epidemic, like 
climate change, where there are people who are denying the 
overwhelming weight of scientific consensus.
    Would you speak generally to the problem of people placing 
their ideological agendas above the findings of scientists?
    Dr. Kessler. Congressman, there were 769 deaths yesterday, 
approximately, from COVID-19. I don't know where we are going 
to be in a June/July with those number of deaths.
    I mean, every time we have looked at the epidemiology, we 
are humbled because we can't predict the direction.
    But the thing that I am absolutely certain is that if we 
want to take that number of deaths down, if we want to get back 
to normal, to every American, please, please be vaccinated. 
Ideology, whatever your concerns, these are very safe and 
effective vaccines. Let us get everyone vaccinated.
    Mr. Raskin. Well, we will take that to heart, and thank you 
very much, Mr. Chairman, for calling the hearing.
    Chairman Clyburn. I thank the gentleman for yielding back.
    The chair now recognizes Mr. Jordan for five minutes.
    Mr. Jordan. Thank you, Mr. Chair. Thank you, Mr. Chairman.
    Dr. Fauci, American citizens, some of them lost their 
businesses because of lockdowns imposed due to the virus, and 
we have been told for a year they can't go to church, can't go 
to work, can't go to school, can't go to a loved one's funeral, 
can't go to their United States Capitol to petition their 
government, and if they dare speak anything that is contrary to 
what you have said or CDC has said, they get censored, as 
evidenced by the governor from our third largest state just 
last week facing that situation.
    All the while, as the ranking member, Mr. Scalise, has 
pointed out, migrants enter the country illegally from 60 
different countries. They are processed, put on a plane paid 
for by the American taxpayers, without getting tested, flown 
somewhere or bussed somewhere in the country. It just doesn't 
hardly seem fair.
    And so, I will go back to the question I asked the first 
round. Can you give us a specific measurement that will have to 
be attained, some outcome, some result that we have to reach, 
so that Americans know they are going to get their liberties 
back and be able to move on with their lives?
    Dr. Fauci. You are asking for a number. If I have a number, 
it would have to be my best estimate and that would be that the 
number of infections per day are well below 10,000 per day.
    At that point and up to that point, there would be a 
gradual pulling back of some of the restrictions you are 
talking about, particularly when people are vaccinated more and 
more because it is a combination.
    If you are vaccinated, you are protecting yourself, for 
sure, and the more people that get vaccinated in the community 
the lower the level of infection will be.
    Mr. Jordan. I understand. I understand. Well, give us an 
idea. I mean, look, you have given us thoughts on all kinds of 
subjects. You have opined on all kinds of issues. Give us your 
best guess then.
    Dr. Fauci. I just did.
    Mr. Jordan. No, you didn't. You didn't give us a time. When 
do you think this is--are we going to be doing--are we going to 
be here two years from now wearing masks and asking Dr. Fauci 
the same question?
    Dr. Fauci. No, I doubt--I doubt--well, let me--let me--you 
are ranting again. Let me just----
    Mr. Jordan. No, I am not ranting.
    Dr. Fauci. Yes, you are.
    Mr. Jordan. No, I--here is how it works, Dr. Fauci.
    Dr. Fauci. Right.
    Mr. Jordan. I get to ask you the questions. You are the 
highest paid official in the U.S. Government. You have given us 
your advice on baseball, on dating apps, on cruise ships. You 
told us zero masks, one mask, two masks, now back to one mask.
    I am just asking you, when is it going to end? You can say 
I am ranting. I am actually asking the question that the 
citizens I get the privilege of representing. And my name 
actually goes on the ballot.
    I don't think your name has ever been on a ballot. My name 
goes on the ballot. The citizens I represent want to know the 
answer to when they can get their liberty back.
    Dr. Fauci. You know----
    Mr. Jordan. You can call that ranting. I actually call it 
standing up for the Constitution, which I take an oath to 
uphold, Dr. Fauci, every year--every term that I serve in this 
Congress representing the folks in the Fourth District of Ohio. 
So, it is not ranting. It is defending the First Amendment. And 
we would like an answer or your best guess, since you have got 
an answer for everything else.
    Dr. Fauci. Well, when we get the people in this country 
vaccinated, the overwhelming majority of the people in the 
country, and we project that that will very likely be sometime 
in the beginning to mid of the summer.
    Because as the president has said, when we get to the end 
of May there will be enough vaccinations to vaccinate everybody 
in the country. It will--the reason I can't give you a precise 
number because I am not 100 percent sure how many people will 
want to be vaccinated. That is what I am saying. If you get the 
overwhelming number of people who----
    Mr. Jordan. You gave us--you gave us a guess on Texas. Look 
at the--look at the chart here. You gave us a seven-day average 
of case rate per 100,000 people. You gave us your guess on 
Texas. You said when Texas ended their lockdown, ended their 
mandate, that this was, quote, ``inexplicable,'' and would lead 
to a--would lead to a surge in cases.
    Texas is near the bottom of the 50 states. But all the 
states at the top--all the states at the top are lockdown 
states. So, how great was that--that guess didn't seem to be 
too good.
    What explains why Texas is so darn low compared to the rest 
of the states? Lockdown states have a much higher case rate 
than the state of Texas, which has over a month ago now said, 
we are not going to lock down--we are not going to have all 
these mandates that you say we have to have.
    Dr. Fauci. Yes. There is a difference between lockdown and 
the people of obeying the lockdown. You know, you could have a 
situation where they say, we are going to lock down and, yet, 
you have people doing exactly what they want to do.
    Mr. Jordan. Is that--is that what is happening in the top 
eight states in the country? They are just not--they are just 
not following what has been told? They are not listening to Dr. 
Fauci?
    Dr. Fauci. I am sorry. You are speaking so fast I am not 
even hearing what you are saying.
    Mr. Jordan. Well, you can look at the numbers.
    Dr. Fauci. I can't see that. It is too far away.
    Mr. Jordan. OK. Well, Michigan is at 551 cases for 100,000. 
Texas is at 77. Wisconsin is at 109 because their state Supreme 
Court overruled their governor--the Republican court--and said 
we are not going to have a lockdown in Wisconsin and their 
numbers are five times lower than the state of Michigan, which 
is right next door.
    Chairman Clyburn. The gentleman's time has expired.
    Mr. Jordan. But, Mr. Chairman, it is typical when you are--
there is a question on the table that the witness gets a chance 
to respond to that last question. I want to know why----
    Chairman Clyburn. I will ask the--I will ask the----
    Mr. Jordan [continuing]. Why Wisconsin is at 109 and right 
next door Michigan is at 551. Michigan is locked down and 
Wisconsin isn't.
    Chairman Clyburn. I think the gentleman answered you quite 
clearly.
    Mr. Jordan. He didn't answer that. He hasn't answered one 
question I have asked today.
    Chairman Clyburn. There is a big difference in being a 
lockdown state by order and being a state that obeys orders. 
That answered the question, in my opinion. And with that----
    Mr. Jordan. Yes, we don't obey orders in----
    Chairman Clyburn. The chair recognizes Mr. Krishnamoorthi 
for five minutes.
    Mr. Krishnamoorthi. Thank you, Mr. Chair.
    Dr. Fauci, the number-one Facebook post today about 
vaccines is Tucker Carlson's suggesting they don't work, going 
back to our exchange from before. There are calls now to take 
down his post by Facebook, as it has become the most engaged 
post and fueling the anti-vaxxer movement online.
    Would you--it seems appropriate, given what Big Tech needs 
to do to take down these anti-vaxxer claims to take down Tucker 
Carlson's Facebook post as well? What do you think?
    Dr. Fauci. You know, Congressman, I am really not expert 
enough about what should be taken down.
    Mr. Krishnamoorthi. OK. Dr. Kessler--Dr. Kessler, this is 
your beat, vaccine hesitancy. If this is as serious a anti-
vaxxer claim and it is getting the engagement it should, 
shouldn't we take down this Facebook post?
    Dr. Kessler. Vaccines work. Any suggestion that they don't 
would be false and misleading, and I would ask--we have been 
sitting here. I would just ask that all members of this 
committee reinforce that point to the American people.
    Mr. Krishnamoorthi. Dr. Fauci, with regard to Facebook, 
Chelsea Clinton has now called for this Facebook post to be 
taken down and numerous others. How about you?
    Dr. Fauci. You know, when I--I was trying to answer the 
question when you switched over to Dr. Kessler. I am not an 
expert enough on what liberty should or should not be 
encroached upon by taking things down from Facebook.
    I don't want to go on the record and say something should 
be taken down from Facebook because that is not my area of 
expertise, what one can or cannot take down from Facebook.
    I can comment that I certainly disagree with what he said 
and I made it very clear that I disagreed with what he said.
    Mr. Krishnamoorthi. And should he retract his statements?
    Dr. Fauci. Should he what?
    Mr. Krishnamoorthi. Should Tucker Carlson retract his 
statements in light of your testimony today?
    Dr. Fauci. You know, I wish that he would not have said it. 
Again, I don't want to get into a back and forth because that 
is what happened between me and Tucker Carlson.
    I am too busy doing my job to going back and forth with 
people like Tucker Carlson. He could say what he wants to say. 
I wish he would not. I don't think it is productive.
    Mr. Krishnamoorthi. Given what he has said and what he has 
posted on Facebook and social media, do you believe that it 
advances or sets back our drive to vaccinate the population?
    Dr. Fauci. Well, the statement he made is that he doesn't--
it looks like the vaccines might not be working. The 
implication was since you are asking us to wear masks the 
vaccine might not be working.
    My comment to that is that the vaccines were shown the mRNA 
vaccines to be between 94 and 95 percent effective. So, my 
answer to him is merely one of data. Look at the data. The 
vaccines are highly efficacious and have been shown in the 
field to be highly effective.
    In fact, that was the third or fourth or fifth slide in my 
presentation.
    Mr. Krishnamoorthi. No, but it is a simple question, Dr. 
Fauci. Is it--are his statements advancing the cause of getting 
us to the point where we can remove our masks and, quote/
unquote, ``exercise our liberties,'' or are we now setting back 
the program of getting to that state?
    Mr. Krishnamoorthi. His statements are, certainly, not 
advancing the cause of trying to get as many people vaccinated 
as quickly as we possibly can.
    Mr. Krishnamoorthi. Dr. Kessler, you said that each week we 
are going to be delivering or we are delivering 28 million 
doses of vaccine, and I assume that the demand right now meets 
the supply.
    But at some point, you said, it is going to plateau. And 
when do you expect the demand to be less than the supply?
    Dr. Kessler. I think over the next number of weeks. I 
think----
    Mr. Krishnamoorthi. So, we will be gathering a surplus of 
vaccines at that point?
    Dr. Kessler. It is--you know, we are a diverse country and 
there is going to be areas where there is appointments that 
will go unfilled, and there will be areas of the country where 
it is still going to be hard to get an appointment.
    But I think we are getting to that inflection point and I 
think we all have to individually work hard and personally to 
talk to people. Listen to people. Understand people's fears, 
people's concerns. We have a--we have a big job ahead of us if 
we are going to get----
    Mr. Krishnamoorthi. If we have surplus vaccines at some 
point where the demand is less than the supply and is just 
gathering, what are the contingency plans to do with those 
surplus vaccines?
    Dr. Kessler. We are going to work day and night, and we 
are, to build further confidence in the American people. We 
know the most important thing that we can do is to invest in 
trusted messengers across the country.
    We are leading with the science. I think you have seen that 
this week's actions should give the American people increased 
confidence in the FDA and the CDC. We have a big job ahead of 
us and we are not going to stop until we have vaccinated 
everybody that we can.
    Mr. Jordan. Will the gentleman from Illinois yield for a 
question?
    Mr. Krishnamoorthi. Go ahead.
    Mr. Jordan. Will the gentleman yield?
    Chairman Clyburn. The time has expired.
    Mr. Krishnamoorthi. I can't yield you anything, but go 
ahead.
    Chairman Clyburn. The gentleman's time has expired.
    The chair now recognizes Dr. Green for five minutes.
    Mr. Green. Thank you, Mr. Chairman.
    And I want to begin round two here by thanking 
Representative Bill Foster for his allowing me to partner with 
him on the GAO Task Force. Bill and I don't agree on a lot of 
political positions, but I have grown to deeply respect his 
scientific knowledge and his management skills as he has worked 
with them to make sure contracts were appropriate, operations--
Operation Warp Speed went well.
    And he and I did agree on sending a letter to the 
administration asking that we use one dose for Moderna and 
Pfizer until everyone is vaccinated. I still believe that is a 
strong position. The data from, particularly, our allies has 
shown that to be very true.
    Second, someone earlier mentioned that Tennessee's 
infection rate--basically, mentioned our infection rate in an 
effort to imply that open states performed more poorly than 
closed states.
    But a simple glance at the per capita death rate paints a 
very clear picture that there is minimal correlation, if any, 
between deaths and closures and mask mandates.
    Florida, for example, is the third largest state. It ranks 
28th in per capita deaths. Tennessee is the 6th in population--
16th in population and we are 21st in per capita deaths. That 
is consistent across all the states. There just isn't 
correlation. Those statistics need to be checked and confirmed, 
or what was said earlier should be.
    Someone else asked this question earlier and I think it is 
worth mentioning again. You know, do such conditions that were 
described at the Donna facility on the border conform to 
current CDC guidelines.
    The answer was very clear. It doesn't. And that begs the 
question how is it OK to let 600-plus children lay row on row, 
shoulder to shoulder, yet the NEA says we still can't send 
Americans back to school.
    I think that is a question that we should be asking the 
national--the National Teachers Association. I am sorry. That 
is very frustrating to see this continued push to keep kids out 
of school, but it seems to be OK that that we let them languish 
in those facilities on the border.
    Dr. Fauci, I have a question for you, and I would like for 
you, if you could, to elaborate--I am surprised no one has 
asked this question yet--and it is about the J&J vaccine.
    I, too, am one of those folks who believe that the Moderna 
vaccine, the Pfizer vaccine--I have looked very hard at the 
data on those. Those are safe.
    I took the first vaccine myself. I am holding on a second 
to keep in--keep consistent with Dr. Foster and my push to have 
one vaccine first.
    But you recently made some comments about the J&J vaccine. 
As I understand it, there were only six cases of clots, and out 
of several million 7 or 8 million that have been administered.
    I would love for you to elaborate on this, because I am 
very concerned that this halt or what you have said about the 
halt has probably contributed to things like these Facebook 
posts and others who are concerned about vaccine safety.
    So, if you could kind of comment on the incidence of this 
clot versus the number of vaccines, and then the pause and what 
it may be communicating to people about the safety of the 
vaccines.
    Dr. Fauci. Thank you very much for that question. It is an 
important question.
    So, the CDC and the FDA made a determination when they saw 
the accumulation of six, a relatively small number, of this 
really quite devastating complication of an adverse event of 
cerebral venous sinus thrombosis with thrombocytopenia.
    And they did it, as they have stated very clearly, even 
though it is a very low level, when you look at it the number 
as of now would be, like, less than one per million. They did 
it out of an abundance of caution and called it a pause to be 
able to do two things: one, to examine it more carefully to 
make sure that there are not a lot more out there, and to alert 
physicians to be on the lookout for this.
    But also another important component of it is that if there 
are more of these situations where people have this and they 
come to a physician, if the physicians are not aware of it, 
they may treat the person inappropriately because this is a 
clotting situation and the standard way to treat a thrombosis 
is with an anticoagulant call heparin.
    However, in this case, heparin is contraindicated because 
it could actually make the situation worse.
    So, there were two reasons to do it: one, out of an 
abundance of caution to see what we are dealing with, and B, to 
make sure they alert physicians about what to do with it. 
Hopefully, we will get a decision quite soon as to whether or 
not we can get back on track with this very effective vaccine.
    Mr. Green. I would love for you, though, sir, to just in 
your future comments about it be very careful, because I think 
they are contributing to some of this vaccine hesitancy. And I 
just--if I could just ask you to do that in the future. You 
know, just a request. Thank you. And I yield.
    Chairman Clyburn. Thank you very much.
    The chair now recognizes Mr. Foster for five minutes.
    Mr. Foster. Thank you.
    And just one quick question on the last subject.
    In your epidemiological modeling, what is the difference in 
the projected total mortality by the time the--that the 
pandemic burns out because of the delay that is implied by a 
delay in the J&J vaccine?
    And if you don't have a just off the--you know, offhand 
answer to that, if you could answer that for the record, it 
would be very, very informative. Because that is the tradeoff, 
as I perceive it, between the risk of those one in a million 
of, you know, people who would, you know, be at risk otherwise.
    And now I will change back to our favorite subject here. I 
just want to thank you for your testimony about the long-term 
Federal investments in science that were so crucial to getting 
out from under this pandemic.
    You know, I have been out of science and at this crazy 
business for about 12 years now, and I cannot count the number 
of times that we Democrats have had to compromise in 
negotiations or give up things that we care about to defend the 
scientific budgets against the cuts proposed and voted for by 
Republicans from Paul Ryan to Mick Mulvaney to Donald Trump.
    Well, that is my rant, and there is no need for you to 
comment on this. But, now, what I would like to ask you about 
are next-generation vaccines. You know, these may be really 
important, both for boosters in the U.S. in the future and for 
the rest of the world to keep new variants from coming back at 
us from offshore.
    And what I have been reading about all these great concepts 
for next-gen vaccines, you know, the self-amplifying mRNA 
vaccines, the nose spritz, which could be much better for 
vaccine hesitancy, oral vaccines, which will be, obviously, 
great for convenience and for vaccine hesitancy. And then all 
these neat things like the electrical apheresis devices for DNA 
vaccines and so on that don't have needles. Anyway, what are 
the promising technical approaches and the plausible timelines 
for these, both in the U.S. and abroad?
    Dr. Fauci. Well, there are a--thank you for that question. 
There are a couple of approaches to the evolution of variants. 
One of them is to actually boost against the wild type virus, 
and the reason we see that because the higher the titer of 
antibodies, we find that even when a variant comes along and 
diminishes the efficacy of the vaccine by two, three, or four 
fold, there is still enough cushion in the effectiveness of the 
vaccine that it spills over and protects against this new 
variant.
    The other approach is one that we have already started in 
Phase 1 and 2A trials, and that is to make a boost that is 
specifically directed at the variant in question. The one that 
we are directing it at is the one that is the most problematic 
for us right now.
    Theoretically, it is not dominant in the country. But, 
theoretically, it could be the most problem and that is the 
South African isolate, the 351. The ultimate end game, when you 
talk about the next generation, would be what we call a 
universal SARS-CoV-2 vaccine and, ultimately, a universal 
coronavirus vaccine.
    And there are a number of ways of doing that. We have 
important and new platform technologies and we believe, for 
example, that we can apply the mRNA technology to get to that 
goal of getting a broad response against all possible variants.
    These are activities that have already started with the 
funding that has been generously given to us by the Congress.
    Mr. Foster. And are you also continuing to experiment 
either in the U.S. or abroad with different dosing regimens? 
For example, given the phenomenal effectiveness in children of 
the mRNA vaccines or at least one of the mRNA vaccines, are you 
considering looking at giving two half doses or maybe only one 
dose to children and see if that is effective?
    Because, obviously, even if we choose not to do it in the 
U.S. it will have huge advantages to the rest of the world if 
you can demonstrate that that sort of approach actually works.
    Dr. Fauci. As part of the dose--as part of the age de-
escalation, which means that, for example, we know now for the 
Pfizer that the 12-to 15-year-olds there was, essentially, 100 
percent efficacy of that vaccine.
    But when you do an age de-escalation and you go from 12 to 
9 years old, 9 to 6, 6 to 2, and 6 months to 2 years, there 
will be a dose de-escalating also on that, and perhaps Dr. 
Kessler can comment further on that.
    Dr. Kessler. Getting the dose right in children is 
absolutely essential. And, in fact, one of the reasons why it 
takes longer in kids is because that--collecting that data is 
being undertaken right now and that is what we will have, I am 
confident.
    Again, I don't want to get out ahead of it in front of FDA 
and the ACIP. But we will likely have a vaccine for adolescents 
from 12 to 16 over the next several months. But the younger age 
groups, in order to get that dose data, it will take longer.
    Mr. Foster. Thank you, and I believe my time has expired, 
and I yield back.
    Chairman Clyburn. I thank the gentleman for yielding back.
    The chair now recognizes Ms. Malliotakis for five minutes.
    Ms. Malliotakis. Thank you, Mr. Chairman.
    I wanted to continue the conversation regarding our 
schools. And as I mentioned, the CDC had recommended a $23 
billion cost to reopen. That was the estimation in December, 
and that COVID bill is $64 billion, almost nearly triple the 
amount of money that was needed.
    And then in this last package they put in another $110 
billion, which would be eight times the amount that the CDC 
estimated it would cost.
    Now, my question for you is, because New York City School 
system is still basically closed.
    Yes, there is some in-person instruction at elementary 
schools and some at the middle school level. But the reality 
is, is that the CDC is recommending five days a week in-person 
instruction.
    What can you do to assist us to get that message to the 
local level? Because this is really having an impact, and as 
Dr. Fauci is from the community, from the city that I 
represent, so he understands maybe the impact that this is 
having.
    But from a medical standpoint, I mean, we are talking about 
COVID. But then this is creating all sorts of other issues: 
nutrition, obesity, school athletics remains shut down. I can't 
get 12 kids in a hockey league to be able to play. Just 
nonsensical stuff that we are seeing.
    And I understand it is a local decision and it is about 
local management. But what can you and the administration do to 
try to talk some sense into the leadership in New York City to 
get our schools open, get school athletics back on track? 
Children, you have seen across the country, sadly, committing 
suicide.
    This is having a mental health--another public health 
crisis is being created as a result. Both parents are trying to 
go to work. You know, it is really hard, particularly on single 
mothers. The after school centers are closed.
    I mean, what can we do as a Federal Government, as an 
administration, to try to--are you meeting with them? Are you 
communicating with them regularly?
    Are you visiting with these chancellors on the local level 
to come up with a plan to meet this 100-day goal that the 
president sent that we are about to reach any day now?
    Dr. Walensky. So, we have put forward this operational 
guidance. We have been collaborating with the Department of Ed. 
We have been talking to the teachers unions and we have been 
talking to individual states.
    What I can say is that the guidance speaks to all the 
layered mitigation strategies that need to be in place in order 
for this to be safely done, and schools are working toward that 
in many of these places.
    I do want to say that we have definitively said the schools 
should be the first place to open and the last place to close.
    Many of the outbreaks associated with children are 
happening on the athletic field. They are happening in 
wrestling. They are happening in hockey. They are happening in 
basketball.
    So, we have limited guidance--we have guidance that limits 
the school sports in the context of highest transmission.
    Ms. Malliotakis. OK. Thank you very much. I would like to 
give Mr. Scalise 30 seconds and the remaining on my time to Mr. 
Jordan.
    Mr. Scalise. Thank you. I appreciate the gentlelady from 
New York.
    Real quick, because there were some comments that were 
brought up regarding Tucker Carlson, some things that were said 
but other parts of the context that were left out.
    So, I did just want to include on Mr. Carlson's show on 
Wednesday, he did say, quote, ``Wait a second. Who is doubting 
that vaccines work? For the record, we never for a minute 
doubted it.''
    He goes on to say, ``So, when they said this stuff works we 
never questioned it.'' So, I think it is important to put that 
on the record as well because that was left out, I think a 
little bit unfairly.
    Yield back.
    Ms. Malliotakis. Mr. Jordan?
    Mr. Jordan. I thank the gentlelady for yielding.
    That was--that was a subject I wanted to touch on. We just 
had a member--I wish he was still here. That is why I tried to 
ask him a question. Representative Krishnamoorthi actually 
lobbying for Tucker Carlson, a member of the press--actually 
lobbying for his statements to be censored.
    A member of the government telling someone in the press, 
advocating for someone in the press to have their statements 
censored. And Dr. Fauci says I am ranting when I talk about the 
First Amendment.
    For goodness sake, you got a Member of Congress in the 
government saying someone in the press should be denied their 
ability to speak that statement. They should be taken off of 
Facebook, taken down.
    This is how scary it has gotten, and the longer it goes, 
Dr. Fauci--the longer it goes, the scarier it is going to be 
for the liberties that we, as American citizens, have. That has 
been my point the entire time.
    But I wish the gentleman were still here. But I cannot 
believe what I heard where a Member of Congress is saying and 
asking you all a question, and you all won't give the right 
answer, which is, of course, his statement shouldn't come down.
    It would have been easy to say, Dr. Fauci, if you actually 
cared about the First Amendment, of course, I disagree with his 
statement. I know you do. I don't know that I disagree with 
everything he said because he just was put in context--when you 
get the whole context.
    But you disagreed with his statement. What you should have 
said he can say what he wants, shouldn't be taken down. I just 
respectfully disagree.
    I yield back to the gentlelady from New York.
    Chairman Clyburn. The gentlelady's time----
    Dr. Fauci. Mr. Chairman, could I--just to clarify?
    Congressman Jordan, I definitely think he has the right to 
say whatever he wants to say. Well, he was talking about things 
that I think are legal or not legal about taking things down.
    Why don't we just make it so that you understand very 
clearly that I think that Tucker Carlson can say whatever he 
wants to say. It is freedom of speech.
    Mr. Jordan. Well, God bless you. I appreciate it.
    Chairman Clyburn. Well, you know, I would just say, Mr. 
Jordan, that there is something about this country that we pay 
entertainers very well. I don't care about how much money they 
make. But I want them to be recognized as entertainers.
    Mr. Jordan. Tucker Carlson is a member of the media. He is 
a member of the press.
    Chairman Clyburn. Tucker Carlson--Tucker Carlson, in my not 
so humble opinion, is an entertainer.
    And with that, I will yield five minutes to Ms. Waters.
    Ms. Waters. Thank you so very much, Mr. Chairman.
    Again, Dr. Fauci, I would like to thank you for your 
courage and your integrity, and I want to ask you about a 
couple of friends that I have that I think have been considered 
or is being considered long haulers.
    Now, they tell me about some of their symptoms. I think one 
has not gotten the taste and the smell returned. The other one 
is having, I think, headaches and some other kinds of things.
    What can they expect? Should they get booster shots? What 
can be done for the long haulers?
    Dr. Fauci. We are now--that is a great question, 
Congresswoman Waters. We are studying very intensively now what 
is a real and unfortunate syndrome, and that is a certain 
percentage of people--and we are collecting large cohorts now 
to find out exactly what that percent is.
    It ranges in some observational studies from 10 percent to 
20 to 25 percent of people who have varying levels of 
involvement of COVID-19.
    Some are in the hospital. Some are in the hospital 
seriously ill. Some are taken care of at home and are out of 
work or whatever for a month. But at the end of the day, when 
they clear the virus from the body, they have this peculiar 
persistence of a constellation of symptoms that are 
unexplainable, because the virus is gone and, yet, they have 
profound fatigue, muscle aches, sleep disorders, temperature 
dysregulation, fast heartbeat called tachycardia, and a thing 
called brain fog, which means they have difficulty focusing on 
anything, on a computer or on reading.
    So, what we are trying to do is to find out, A, what is the 
percent of people, B, is there an underlying common cause of 
that, because up to now on superficial looking there is no 
specific laboratory test that is giving us any clues.
    But it is a real phenomenon and we are taking it very 
seriously. As a matter of fact, we have invested $1.15 billion 
in a multi-institution type of an approach with the NIH, the 
CDC, multiple institutes within the NIH. It is something we 
take very seriously.
    Ms. Waters. Well, let me just continue with that. We are 
talking about the various variants and we are also hearing some 
conversation about the possibility of booster shots that may be 
necessary.
    Would there be a different booster shot for different 
variants? For example, you describe one coming out of South 
Africa. Someone alluded to one coming out of Brazil. We have 
heard about the U.K.
    Do you think that if we have to have booster shots it may 
be different kinds of booster shots, depending on the variant 
that is the problem?
    Dr. Fauci. Yes. That is a great question and that is one of 
the things I tried to address in a partial answer to one of the 
questions.
    There are a couple of ways of looking at variants. One is 
the boost against what we call the wild type, the underlying 
original one. If you get it high enough, it could spill over 
into protection to the variant.
    The other is to specifically make a boost against the 
variant. The problem with that is that if you get more and more 
variants, that is almost like playing whack-a-mole. You hit 
this one, then you go to the other one, you go to the other 
one.
    And that is the reason why what we are putting a lot of 
effort in is to try and get a more universal vaccine that would 
cover all different types of variants. That is the ultimate end 
game.
    But until then, we are trying to isolate and find out what 
the most damaging or potentially dangerous variant is and to 
make a special boost against that, and that is what we are 
doing.
    Ms. Waters. That is--that is very good to hear, and I am 
going to be paying a lot of attention to that because I, 
without, you know, having any specific scientific knowledge, I 
just think that there may come a time when we have to have 
booster shots.
    Now, having said that, I want to talk just one--a bit about 
something right here at home. It is very simple. The Members of 
Congress are congregating in the elevators. They pile in the 
elevators.
    And when I am on an elevator and it stops, I will only let 
two other people on because I won't live with more than three. 
And some say, well, I have had shot so I am wearing my mask.
    What advice do you have for us to, basically, be more safe 
and to be fine examples of what to do to prevent the virus?
    Dr. Fauci. Yes. There are a couple of things to be done. I 
think we should encourage all Members of Congress to get 
vaccinated because I think that would be really good for their 
own personal protection as well as for the community of the 
Congress.
    The other thing is that what we do in our Federal--some of 
our Federal buildings--I know we do it at the NIH--when you 
have the elevator, they have these things here that are in the 
corner and they say no more than four if the elevator is a 
certain size, and no more than two if it is a much smaller 
size.
    But it actually works and people abide by that and they 
respect that, and I think that is a good thing if we can get 
that done.
    Ms. Waters. Thank you for your advice. Again, I appreciate 
you so very much. Thank you and I yield back.
    Chairman Clyburn. I thank the gentlelady for yielding back.
    The chair now recognizes Ms. Miller-Meeks for five minutes.
    Ms. Miller-Meeks. Thank you, Mr. Chair.
    Dr. Walensky, since this pandemic started, as a physician 
and former director of the Iowa Department of Public Health, I 
have referred to this as life versus life. Not life versus the 
economy, not life versus liberty, but life versus life.
    At that time, I said that we would see with hospitals 
closed, with businesses closed, childcare closed, that we would 
see the increased deaths from cancer treatments not being 
given, also cancer not being detected, from drug overdose, 
suicide, depression, mental health.
    And now we have, certainly, that data. We have--the San 
Francisco Chronicle published earlier this year that the rate 
of drug overdose deaths, even with Narcan being rapidly 
dispensed and in the public, was over 30 percent higher than it 
had been the year before.
    We also know the same statistics out of Japan. We also know 
from Las Vegas that, having closed their schools, what forced 
the Las Vegas school district to open their schools was the 
publication that--in the New York Times that from March 16 to 
June 30 of 2020 there were six suicides in young children, and 
between July 1 and December 31 there were additional 12--18 
suicides, the youngest of which was nine years old, which is 
tragic.
    So, my question for you is do you know how many excess 
deaths, not COVID but excess non-COVID-related deaths have been 
incurred during this past year?
    Dr. Walensky. I know there was an MMWR report out today 
actually that describes from January 2020 to February 2021 
excess deaths of about 500,000, about 75 percent of which are 
attributable to COVID.
    Ms. Miller-Meeks. Thank you. So, excess deaths of 500,000, 
which is somewhat similar to what we have. So, thank you for 
that.
    Dr. Walensky. Seventy-five of which are attributable to 
COVID so that is the same----
    Ms. Miller-Meeks. So, non-COVID-related excess deaths was 
what I was asking. But I will go to my next question but thank 
you for that.
    I was at the border earlier this week in the Rio Grande 
Valley sector--and thank you, Representative Waters, for 
bringing up congregating in the elevators and crowding, because 
when I was there at the Donna Processing Facility, that 
facility was at 420 percent capacity. They had brought it down 
from 5,000 per day to 3,500 per day. This facility was not 
built for that.
    While I was there, as a woman and a mother I was concerned 
about young women being smuggled into the country, brought 
across without any parental support or parental guidance, and 
asked them about pregnancy, rape, sexual assault, and they 
informed me that the week before they had an 11-year-old girl 
recently pregnant and a girl between 11 and 15, who, the day 
she arrived at that facility, gave birth to twins.
    So, does pregnancy put individuals or these young people--
they are not being tested for COVID. We already know that. But 
does it put them at a higher risk for severe illness from 
COVID-19?
    Dr. Walensky. Epidemiologic studies say that outcomes of 
COVID in pregnant women are increased ICU risk and on other 
things.
    Ms. Miller-Meeks. OK. And does the overcapacity in the 
shelter put them at higher risk for COVID-19?
    Dr. Walensky. Crowding is a risk for COVID-19, yes.
    Ms. Miller-Meeks. So, I have been working on vaccine 
hesitancy throughout. As soon as the vaccine--and I thank the 
previous administration and President Trump for getting the 
vaccine to this point in time--but it is really the Nation's 
vaccine, not a particular president's vaccine. And working on 
that, and even this weekend on Saturday was able to vaccinate 
20 young individuals who were attending a meeting.
    And so, we have talked about vaccine hesitancy and the need 
to get across that. But I am wondering if--and, Mr. Chair, I 
would like to introduce this article into the record, if I may, 
from September 2020 when Dana Bash asked Vice President Harris 
if she would get the vaccine, and quote, ``I would say that I 
would not trust Donald Trump and it would have to be a credible 
source of information that talks about the efficacy and the 
reliability of whatever he is talking about. I will not take 
his word for it.''
    Is this the kind of information you think that also 
contributes to vaccine hesitancy?
    Dr. Walensky. I think we all have a role to get vaccinated, 
and I would encourage everybody to get vaccinated with the FDA-
authorized vaccines.
    Ms. Miller-Meeks. So, I fully respect her freedom of 
speech, as Dr. Fauci respects Tucker Carlson's. But I think, 
yes, it is incumbent upon all of us to be transparent, to be 
ethical, to give information, and this also applies to the--how 
we handle the J&J vaccine as well to the pause.
    Thank you so much and, again, I appreciate all of you being 
here and your testimony today.
    Chairman Clyburn. Thank you.
    The chair now recognizes himself for five minutes to close 
the second round of questioning.
    I wish to say that I remember the statement made by Vice 
President Harris. I also seem to remember that she had a very 
public vaccination, very public. She and the president as well.
    I am old enough to remember the Tuskegee experiment, and I 
know what hesitancy that has caused. I am also remembering the 
polio vaccines, one being a shot, which we owe to the genius of 
Dr. Jonas Salk, the other being a little drop of serum on a 
lump of sugar, all to the genius of Albert Sabin.
    I need not tell you which one of those was preferred, and 
so I will not have to explain to you which community got what 
vaccine. And that is why the vice president was so public with 
her vaccination and that is why I was very public with mine and 
received my second one on January 7.
    As you can imagine, I mean, the day after January 6, my 
mind was on a lot more than the vaccination. But I thought it 
serious enough to have that vaccination done on that day in the 
same place that had been ransacked the day before.
    And I think it is important, in my opinion, that we 
recognize mask mandates and closures, and though it seems as if 
a few of my colleagues here believe that mask mandates and 
closures haven't helped save lives. That is what they have said 
here.
    I want to know, Dr. Fauci, would you agree with that?
    Dr. Fauci. I believe that mask mandates have helped.
    Chairman Clyburn. How about you, Dr. Walensky?
    Dr. Walensky. I agree with Dr. Fauci.
    Chairman Clyburn. Dr. Kessler?
    Dr. Kessler. Absolutely, Mr. Chairman.
    Chairman Clyburn. Well, I want to thank the experts here, 
and I would hope that the public looking in or listening in on 
this hearing today will take to heart the fact that the 
scientists, the people who have spent their lives in this field 
saving lives, will take heed, and as they listen to the words, 
for those who haven't spent a day studying these issues or 
practicing them, those who spend their time practicing the 
words of persuasion rather than in hearing the scientific 
research that got rid of polio and so many other diseases.
    You know, I have taken my single shot, and for what I know 
about these kinds of diseases, when the scientists tell me that 
the research says they will be helpful to my comfort and well 
being, I am going to take it and I urge all of my constituents 
and all others who may have any confidence in my opinion to 
please follow the scientists and get vaccinated.
    With that, I yield back and I will call and end to the 
second round of questions.
    And I will now yield to my ranking member for any closing 
comments he would like to make.
    Mr. Scalise. I want to thank Chairman Clyburn for having us 
here and really appreciate our witnesses for coming.
    I know for Dr. Fauci, you have been back a few times. When 
you look at some of the conversations we have had, I know when 
I listen to constituents of mine they want to follow the 
science and get back to their lives as best as they can.
    And we are over a year into this now. We see some states 
who have opened more broadly using science and some states that 
have stayed shut down, in many cases going against the science.
    And again, you can look at the chart. The states that are 
the most closed down right now have some of the highest 
incidence of COVID transmission. And you look at number 50. Out 
of 50, Texas is probably one of the most open states.
    So, the science shows and the data shows that you can 
safely reopen. Some are just choosing not to, and that is 
really where we get to the concern.
    When you look at some states that are practicing more 
political science while ignoring medical science, that is what 
angers so many of us. You look at school reopening, and I 
appreciate Dr. Fauci and Dr. Walensky both said if you follow 
the CDC guidance, which says socially distance and wear a mask, 
every school should be open today. And yet, about half of our 
schools in America are not educating kids in the classroom.
    And the science is real clear on this. Long-term damage is 
being done to those kids. Some are committing suicide. Some are 
turning to drugs. Some have lost a generational ability to have 
the same opportunity as anyone else.
    This is a national disgrace. Ten years from now people are 
going to look back and go, how did America let that happen to a 
generation of kids where for over a year they did not learn the 
same way as everybody else in America learn.
    When you watch a teachers union head send his kids to 
private school while telling the teachers in the public school 
system that they shouldn't teach kids in the classroom.
    You want to talk about racial disparity in this country? 
This is a national disgrace that is occurring before our very 
eyes, and instead of waiting 10 years and looking back on how 
did we lose a generation of millions of young kids, let us do 
something about it now.
    Every one of us should be able to stand up, Mr. Chairman, 
Republican and Democrat. Whatever you think of unions, whatever 
you think of school choice, if your school system doesn't want 
to educate your kids in the classroom and the science says do 
it, absolutely do it--if you want to take their money and not 
educate their kids, shouldn't you be able to take that money 
somewhere else where they are willing to educate your kid? 
Because your kid is going to lose his opportunity at life if 
this goes on.
    So, much damage has already been done. We have got to undo 
the damage, and the science--the medical science--backs it up. 
The American Academy of Pediatrics, CDC. You don't need to look 
far.
    You don't need to reinvent the wheel, because it is out 
there, what you can do to open schools today. You don't need 
billions more dollars. We have spent billions of dollars to 
reopen schools.
    The bill that was passed, the $1.9 trillion massive 
spending bill, over 90 percent of which had nothing to do with 
COVID medicine, the money going to schools wasn't even 
dedicated to opening schools.
    And so, people would beg the question, what is the money 
for then because I want my kid back in school. It is denying 
that kid opportunity. They are committing suicide. We ought to 
be concerned about those numbers.
    Then let us turn to the border and, again, I appreciate the 
testimony from our witnesses, because when confronted with the 
pictures that the Biden administration will not let the press 
see, the Biden administration is keeping the press out of this 
facility in Donna.
    It is a national disgrace what is going on in there. But, 
more importantly, as both Dr. Fauci and Dr. Walensky attested, 
it is a violation of CDC guidelines.
    When you got a facility designed for 250 people with over 
4,000 crammed in it, kids on top of kids, that is a violation 
of every CDC protocol out there. And this isn't some private 
sector entity, because your business would be shut down in 
America if you were doing this. But because the Biden 
administration is running it and keeping the press out, it 
remains open today.
    Last Friday, that was what I saw. Major violations of CDC's 
own policy. When they say in the guidance regarding Mexico, 
very high level of COVID-19 in Mexico.
    So, if you are an American taxpayer, CDC, and I know Dr. 
Walensky will back this up, CDC says before you travel back to 
the United States, all air passengers coming to the United 
States, including U.S. citizens and fully vaccinated people, 
are required to have a negative COVID-19 test.
    And yet, if you come across the border illegally, many of 
these young kids are given a free airplane ticket with no COVID 
test.
    Border Patrol agents telling at least 10 percent have COVID 
in this facility crammed on top of each other, which, as we all 
know, based on science, way more than 10 percent are going to 
walk out onto an airplane with COVID and transmit it to the 
rest of the country.
    This is insanity. It has to stop. President Biden, go to 
the border and see this for yourself, and then pull out your 
pen and reverse the executive orders that you created that have 
created this national disgrace.
    Let us solve this based on medical science.
    I thank, again, our witnesses.
    Thank you, Mr. Chairman. I yield back.
    Chairman Clyburn. I thank the gentleman for yielding back.
    Before we close, I would like to enter into the record a 
letter that the committee has received from Henderson 
Incorporated, and I think we have made that letter available. I 
would like unanimous consent to enter it into the record, with 
respect to the role of physicians and dentists in the vaccine 
rollout.
    I ask unanimous consent, Mr. Ranking Member, that it be 
entered into the record.
    Chairman Clyburn. As a former public school teacher whose--
I have a daughter who followed me into that arena and recently 
retired as a public school teacher, a second daughter serving 
on the board of our public school district commission, Board of 
Commissioners, today's hearing reassures me that under the 
leadership of this administration we are on the right track 
toward overcoming the coronavirus pandemic.
    All of us want to see our children back in school. We want 
our children back in school safely with teachers who have had 
the vaccinations and all others with whom they may come in 
contact.
    Millions of Americans are being vaccinated every day, and 
just days from now, all adults will be eligible to receive a 
vaccine. We are prioritizing equity and increasing vaccine 
access in low-income, minority, and rural communities.
    In addition to our vaccination program, the Federal 
Government continues to expand testing and critical supplies of 
going where they are needed most. Research into the disease 
continues. We can finally see the light at the end of the 
tunnel.
    It is in the distance. But I think we are finally beginning 
to see it, because we are leading the science instead of 
politics and that is what has made this possible.
    We placed our trust in our country's best doctors, 
scientists, and public health experts and we have guided us--
and they have guided us out of this chaos and confusion.
    I am glad that we could hear from Dr. Walensky on her work 
to restore the CDC's reputation as the world's preeminent 
public health organization after the Trump administration 
tarnished the agency by bullying scientists and altering 
scientific reports.
    We must commit today to never again allow politics to 
interfere with the public's health. Despite significant 
progress in vaccinations and a decrease in deaths for the last 
several months, the pandemic is not yet over. Almost 5,000 
people died from the virus this past week alone and more 
contagious variants are spreading fast.
    If we are not careful, thousands of lives will be lost that 
could have been saved. We heard today that we must do--what we 
must do to save lives.
    We must continue to wear masks and avoid crowds until all 
Americans have had an opportunity to be fully vaccinated, and 
we must overcome vaccine hesitancy so that all Americans 
benefit from these lifesaving scientific breakthroughs, 
including those of us who the American people have given 
leadership positions by their actions.
    We all ought to lead not by our words or by our deeds, not 
just by precepts but by examples. We ought to be an example. I 
often refer to the halls of the House as America's classroom 
from which lessons ought to be taught.
    I understand, as I said earlier, the weariness of people 
that have had their lives disrupted. If we take these simple 
steps and continue to follow scientists, we can swiftly and 
safely end this deadly pandemic.
    I look forward to working closely with our witnesses to 
achieve this in the months ahead, and I thank you for joining 
us here today.
    With that, without objection all members will have five 
legislative days within which to submit additional written 
questions for the witnesses to the chair, which will be 
forwarded to the witnesses for their response.
    This hearing is adjourned.
    [Whereupon, at 1:38 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
